<html>
<title> - CHINA'S REPATRIATION OF NORTH KOREAN REFUGEES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
             CHINA'S REPATRIATION OF NORTH KOREAN REFUGEES

=======================================================================

                                HEARING

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 5, 2012

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov



                  U.S. GOVERNMENT PRINTING OFFICE
74-809                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0166716e416274727569646d712f626e6c2f">[email&#160;protected]</a>  


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

CHRISTOPHER H. SMITH, New Jersey,    SHERROD BROWN, Ohio, Cochairman
Chairman                             MAX BAUCUS, Montana
FRANK WOLF, Virginia                 CARL LEVIN, Michigan
DONALD A. MANZULLO, Illinois         DIANNE FEINSTEIN, California
EDWARD R. ROYCE, California          JEFF MERKLEY, Oregon
TIM WALZ, Minnesota                  SUSAN COLLINS, Maine
MARCY KAPTUR, Ohio                   JAMES RISCH, Idaho
MICHAEL HONDA, California

                     EXECUTIVE BRANCH COMMISSIONERS

                  SETH D. HARRIS, Department of Labor
                    MARIA OTERO, Department of State
              FRANCISCO J. SANCHEZ, Department of Commerce
                 KURT M. CAMPBELL, Department of State
     NISHA DESAI BISWAL, U.S. Agency for International Development

                     Paul B. Protic, Staff Director

                 Lawrence T. Liu, Deputy Staff Director

                                  (ii)


                             C O N T E N T S

                              ----------                              

                               Statements

                                                                   Page
Opening statement of Hon. Chris Smith, a U.S. Representative from 
  New Jersey; Chairman, Congressional-Executive Commission on 
  China..........................................................     1
Royce, Hon. Edward, a U.S. Representative from California; 
  Member, Congressional-Executive Commission on China............     3
Scholte, Suzanne, President, Defense Forum Foundation; Chairman 
  and Founding Member, North Korea Freedom Coalition.............     5
Han, Songhwa, former North Korean refugee detained in China, 
  repatriated to North Korea and detained in North Korea.........     7
Jo, Jinhye, former North Korean refugee detained in China, 
  repatriated to North Korea and detained in North Korea.........    11
Kumar, T., Director for International Advocacy, Amnesty 
  International USA..............................................    21
Scarlatoiu, Greg, Executive Director, Committee for Human Rights 
  in North Korea.................................................    22
Horowitz, Michael, Senior Fellow, Hudson Institute...............    25

                          Prepared Statements

Scholte, Suzanne.................................................    34
Han, Songhwa.....................................................    39
Jo, Jinhye.......................................................    40
Kumar, T.........................................................    42
Scarlatoiu, Greg.................................................    46

Smith, Hon. Chris................................................    47

                       Submission for the Record

Written Statement of Roberta Cohen, Chair, Committee for Human 
  Rights in North Korea and Non-Resident Fellow, the Brookings 
  Institution, on ``China's Repatriation of North Korean 
  Refugees,'' dated March 5, 2012................................    50


             CHINA'S REPATRIATION OF NORTH KOREAN REFUGEES

                              ----------                              


                         MONDAY, MARCH 5, 2012

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 2:37 p.m., 
in room 2118, Rayburn House Office Building, Representative 
Chris Smith, Chairman, presiding.
    Also present: Representative Edward R. Royce.

OPENING STATEMENT HON. CHRIS SMITH, A U.S. REPRESENTATIVE FROM 
  NEW JERSEY; CHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON 
                             CHINA

    Chairman Smith. The Commission will come to order. Thank 
you all for being here, and good afternoon.
    Dozens of North Koreans are today at imminent risk of 
persecution, torture--even execution--owing to China's decision 
to forcibly repatriate them in stark violation of both the 
spirit and the letter of the 1951 Refugee Convention and the 
1967 Protocol to which China has acceded.
    The international community--especially the United Nations, 
the Obama administration, and the U.S. Congress--must insist 
that China, at long last, honor its treaty obligations, end its 
egregious practice of systematic refoulement, or be exposed as 
hypocrites.
    Article 33 of the Convention and Protocol Relating to the 
Status of Refugees couldn't be more clear:

    Prohibition of Expulsion or Return (``Refoulement''): No 
Contracting State shall expel or return (``refouler'') a 
refugee in any manner whatsoever to the frontiers of 
territories where his life or freedom would be threatened on 
account of race, religion, nationality, membership of a 
particular social group or political opinion.

    Today's hearing underscores an emergency that begs an 
immediate remedy. Lives are at risk. The North Korean 
refugees--disproportionately women--face death or severe sexual 
abuse and torture unless they get immediate protection. China 
has a duty to protect.
    In recent weeks we have learned that Chinese authorities 
have reportedly detained dozens--perhaps as many or more than 
40--North Korean refugees. North Korea's leader, Kim Jong-un, 
has threatened to ``exterminate three generations'' of any 
family with a member caught defecting from North Korea during 
the 100-day mourning period for the late Kim Jong-il. Frankly, 
I believe him.
    It is unclear whether or not the Obama administration's 
food aid to North Korea--some 240,000 metric tons per year--
contains any conditions or links to the refugees. It should.
    Forced repatriation by China of North Koreans, as we all 
know, isn't new. But that doesn't make what is about to happen 
to dozens of new victims any less offensive. According to 
testimony submitted today by Roberta Cohen, chair of the 
Committee for Human Rights in North Korea and a non-resident 
Senior Fellow at The Brookings Institution:

          China has forcibly returned tens of thousands over 
        the past two decades. Most, if not all, have been 
        punished in North Korea. According to testimonies and 
        reports received by the Committee for Human Rights, the 
        punishment has included beatings, torture, detention, 
        forced labor, sexual violence, and in the case of women 
        suspected of becoming pregnant in China, forced 
        abortions or infanticide.

    For the record, I would note that since 2005, I have 
chaired four congressional hearings that focused in whole or in 
part on the plight of North Korean refugees and China's ongoing 
violations of international law.
    The Chinese Government claims that North Korean refugees 
are illegal economic migrants, not refugees. Furthermore, the 
Chinese Government continues its policy of repatriating North 
Koreans in China according to a bilateral repatriation 
agreement that requires it to return all border crossers.
    As we will hear today, in doing so, China is in clear 
violation of its obligations of international law. Again, these 
are obligations that it freely entered into. Under 
international law and standards, these detained refugees are 
entitled to protection if there is a well-founded reason to 
believe that they will be persecuted upon return. There are 
documented accounts, as well as strong evidence. We know that 
the persecution exists and what awaits them if they are forced 
to return.
    North Korea is certainly at fault. It might also be stated 
that China has contributed to the humanitarian crisis through 
its policy of gendercide, the killing of baby girls by forced 
abortion, or infanticide. China's one-child-per-couple policy 
has led to the worst gender disparity in any nation in history, 
and that is directly connected to the issue that we probe 
today.
    According to the 2011 Commission's report, NGOs and 
researchers estimate that as many as 70 percent of the North 
Korean refugees in China are women, and some researchers have 
estimated that 9 out of every 10 North Korean women in China 
are trafficked, usually into sex trafficking.
    In the past we have heard in my subcommittee from women who 
had been forced into trafficking. In one case we heard from a 
woman whose daughter crossed the border and then she and her 
daughter went looking for the missing daughter and sister, only 
to be forced into sex trafficking themselves. They testified 
before our committee and told of their harrowing experience and 
the courage that they had to overcome it.
    The Chinese Government needs to change and the time has 
come now for us to clearly and unambiguously raise the stakes. 
It is time for a change.
    Our focus today is on China's role and responsibility in 
solving this problem. At this time we call on China to uphold 
its international obligations and take immediate steps to end 
this cruel, barbaric policy of sending North Koreans back to 
persecution or death.
    China must conform to international norms and allow these 
refugees safe passage to the Republic of Korea, or grant them 
immediate asylum. And we ask the Chinese Government to take all 
steps necessary to meet the requirements of the convention 
relating to the status of refugees and its protocol.
    And the United Nations. It is time for the United Nations 
to step up and stop writing just short comments and 
commentaries on this, and its leaders, including the head of 
the UN High Commissioner for Refugees [UNHCR] and others, need 
to speak boldly about what is about to happen to these 
refugees.
    Finally, I want to thank all of our witnesses for being 
here at this emergency hearing. It is a special honor to 
welcome Ms. Han Songhwa and her daughter, Jo Jinhye, former 
North Korean refugees who are here to share their personal 
accounts of detention, hardship, and loss. I am sure that their 
reflections and observations will deepen our understanding of 
this issue and strengthen our resolve that China must 
immediately address this self-made crisis.
    I would like to yield to my good friend and colleague, 
Representative Royce, for any comments he might have.

 STATEMENT OF HON. EDWARD R. ROYCE, A U.S. REPRESENTATIVE FROM 
CALIFORNIA; MEMBER, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Representative Royce. Thank you very much, Chairman Smith. 
Thank you for holding this hearing.
    This is an emergency. The Chinese Government is set to 
repatriate many North Korean refugees, so there is an urgency 
to this hearing. There is an urgency to Congress acting. We 
are, for those of us who have been in North Korea, as I have, 
or who have interviewed those who have survived coming over the 
border and being repatriated or have had family members--I 
remember talking, speaking with one young woman whose brother 
attempted to cross with her and he was caught. He died by 
firing squad.
    Speaking to Hwang Jang Yop, who was the Propaganda Minister 
from North Korea, he told us the stories about the 
administration in North Korea making the decision that they 
would not allow food to go to the ``No Go'' areas; that close 
to 2 million people had starved to death because the North 
Korean regime wanted to build up its nuclear program, its ICBM 
[intercontinental ballistic missile] program, and made a 
calculated decision to allow people to starve and felt that 
people in those areas could not be depended upon, they were 
suspect in those regions. So they allowed them to starve to 
death.
    You have reports by the State Department and NGOs that we 
are going to study today that show a very grim picture of what 
is happening in North Korea, a total denial of political and 
civil and religious liberties. We know that. But the severe 
physical abuse that is visited on those who are simply 
suspected or accused of not being in step with the regime, 
anyone who is accused of violating a restriction or a law--you 
have a system of concentration camps akin to the Soviet Gulag 
system.
    The photographs I have seen are very reminiscent to the 
ones taken in Nazi Germany. You have 200,000 people in these 
camps, most of them with no hope of ever getting out. There are 
a few who have managed to get out, to escape over into China. 
We have interviewed them about the conditions, and they are 
horrifying.
    So this dismal state has led to a large number of North 
Koreans, particularly women, trying to escape to take their 
children out of this environment, perhaps as many as 300,000. 
They have fled into China and there they seek food or work and 
resettlement to South Korea. Seventy-five percent of these 
refugees are women. Up to 90 percent, according to some 
sources, end up being trafficked.
    In northeast China, North Korean refugees live in constant 
fear of being rounded up by Chinese authorities. Why is that? 
It's because, despite its international obligations, China does 
not follow that international law and it forcibly repatriates 
North Korean refugees. This, for many, is effectively a death 
sentence.
    Why is that so? Because leaving North Korea is considered a 
crime by the regime and it is punishable by execution or being 
worked to death in the Gulag. There are new reports that Kim 
Jung-Eun has issued a ``shoot to kill'' order to North Korean 
guards patrolling the border, another reason why this hearing 
is important today.
    Sadly, thousands--thousands--of North Korean children have 
been abandoned or orphaned in the Chinese countryside. They are 
threatened by starvation and disease. That is why I introduced 
H.R. 1464, which calls on the Secretary of State to develop a 
strategy to facilitate the adoption of North Korean children by 
U.S. citizens. Many here have supported this legislation.
    China's mistreatment of refugees is not new. What is new 
today is the intensity. As part of its stepped up repatriation 
campaign, Chinese authorities have established detention 
centers along the border with North Korea to accommodate 
greater numbers of North Koreans being held there.
    This is what I want to tell you about, because those 
associated with humanitarian groups who assist North Korean 
refugees are also being targeted at this time by these Chinese 
officials. And by the way, that includes U.S. citizens. There 
is one in particular that I know who was held in one of these 
facilities; we worked to get him out.
    American businessman Steve Kim is another example of a man 
who spent four years in prison, and his supposed crime was 
helping North Korean refugees who had escaped their homeland 
and were hiding in China. They hoped to make their way to South 
Korea. And remember, this is the international agreement that 
China is under, to assist in helping those people escape.
    But Mr. Kim recounted here on Capitol Hill, ``When I was in 
prison I saw North Korean defectors who I shared the prison 
cell with beaten to a pulp by prison guards.'' That was before 
they were sent back to North Korea. That is the conditions that 
exist in China.
    The human rights situation there, there is only one word 
for it: It is a nightmare. It demands the international 
community getting engaged to reverse this, and these human 
rights abuses demand our attention here in Congress. I thank 
the Commission for holding this timely hearing.
    Chairman Smith. Thank you very much, Mr. Royce.
    I would like to now welcome our first very distinguished 
panel, beginning with Suzanne Scholte, who is president of the 
Defense Forum Foundation. Ms. Scholte hosted the first North 
Korean defectors ever to speak out in the United States back in 
1997, and since that time has hosted over 70 visits of 
defectors, from high-ranking officials to survivors of the 
North Korean political prison camps and victims of human 
trafficking in China. She is also the chairwoman of the North 
Korea Freedom Coalition and vice chair of the Committee for 
Human Rights in North Korea.
    We will then hear from Ms. Songhwa Han, who escaped to 
China in the mid-1990s and later returned through North Korea, 
where she was imprisoned and tortured. She escaped to China 
again several years later with her children.
    While living as a refugee in China she encountered forced 
marriage, domestic abuse, forced labor, detention, official 
beatings, and eventual repatriation. Ms. Han received 
protection with the UNHCR in 2006 and asylum in the United 
States in 2008.
    We will then hear from Ms. Jinhye Jo, Ms. Han's daughter, a 
former North Korean refugee detained in China, repatriated to 
North Korea and detained in North Korea. Jo received protection 
with the UNHCR in 2006 and asylum in the United States in 2008. 
Since arriving in the United States she has been an active 
advocate on behalf of other North Korean refugees still living 
in China.
    Ms. Scholte, if you could begin.

    STATEMENT OF SUZANNE SCHOLTE, PRESIDENT, DEFENSE FORUM 
 FOUNDATION; CHAIRMAN AND FOUNDING MEMBER, NORTH KOREA FREEDOM 
                           COALITION

    Ms. Scholte. Congressman Smith, Congressman Royce, I want 
to thank you deeply for responding to this urgent crisis facing 
North Korean refugees in China today.
    Congressman Smith, in September you hosted a hearing with 
North Korean defector Kim Hye-sook, who is the longest-serving 
survivor of the North Korean political prisoner camps. She 
spent 28 years in Bukchang Political Prison Camp.
    I mention her today because the reason she was sent to jail 
at the age of 13, with her entire family, and sent to Bukchang 
where her brother and sister are still being imprisoned, was 
simply because her grandfather allegedly had escaped to South 
Korea. She is a living example of how the regime retaliates 
against three generations of a family if just one family member 
flees North Korea.
    As draconian as these measures have been, the current 
situation is even more critical for the North Korean refugees 
recently arrested in China. Most face execution for three 
reasons. First of all, Kim Jong-un, as you mentioned, announced 
in December that the entire family and relatives should be 
annihilated if any family member fled during the 100-day 
mourning period following Kim Jong-il's death.
    Second, among the group of North Koreans arrested in 
February are refugees who have family members who defected to 
South Korea. In fact, the parents of a 19-year-old girl 
arrested in China have pleaded that their daughter be allowed 
to commit suicide rather than be repatriated back to North 
Korea. There is also a 71-year-old mother who has a daughter in 
South Korea, a 16-year-old whose brother is in South Korea, and 
a mother and an infant. These refugees are trying desperately 
to be reunited with their family in South Korea.
    Third, China is providing information to North Korea about 
the refugees it has arrested, informing the North Korea 
security agents if they were trying to flee to South Korea. 
Because of this collusion the Chinese Government is complicit 
in premeditated murder because it knows that these refugees, 
when repatriated to North Korea, face execution.
    By refusing to honor its international treaty commitments 
and colluding with North Korea to repatriate these refugees, 
China has created a violent environment where 80 percent of 
North Korean females are subjected to human trafficking and 
North Korean agents are allowed to freely roam around China, 
assassinating humanitarian workers and hunting down refugees.
    The Chinese Government wants to be seen as a responsible 
international leader, yet it refuses to allow the UNHCR access 
to these refugees, but has no problem allowing North Korean 
spies and assassins free reign. This collusion with North Korea 
proves most definitely that China cannot hide behind its claim 
that these refugees are economic migrants.
    As China knows full well and has known for decades, when 
they force North Koreans back to North Korea they face certain 
torture, certain imprisonment, and increasingly, execution for 
fleeing their homeland. China has decided that they should be 
executed rather than reunited with their families.
    According to Kim Sung-min of Free North Korea Radio, China 
began separating North Korean defectors into two groups based 
on whether they were trying to escape to South Korea, starting 
in at least 2008. We suspect this was part of the crackdown 
before the Beijing Olympics, as China greatly feared that the 
world would come to know about their cruel treatment of North 
Korean refugees.
    North Korean defectors Ju Seong-ha, a reporter with Dong-a 
Ilbo, and Kim Yong-hwa, have described how China uses a 
different-colored stamp on the interrogation papers for those 
refugees attempting to get to South Korea, the information it 
provides to North Korea when the refugees are repatriated. 
China is literally marking these refugees for death.
    We need to convince China that it is in their best 
interests to reverse their repatriation policy and work with 
the international community to resolve this crisis. In fact, 
China's action is not only causing this refugee crisis, but 
prolonging it.
    Here is why: China fears an increasing flow of refugees, if 
it allows refugees safe passage to South Korea, but China's 
actions are ensuring that there will always be refugees by 
relieving Kim Jong-un of taking any measures that would improve 
conditions in North Korea. North Koreans are fleeing North 
Korea out of desperation.
    They know the considerable risk they are taking and most 
North Koreans who have fled desire to return to North Korea 
once conditions improve. China has long desired that the Kim 
regime adopt reform. By forcibly sending fleeing North Koreans 
back to North Korea, China relieves any pressure for Kim to 
improve conditions in North Korea so the citizens do not want 
to flee.
    Second, China's future will be much better toward people if 
it works with South Korea rather than kowtowing to this 
dictator in North Korea. The two countries celebrate the 20th 
anniversary of their diplomatic ties this year and enjoy a 
robust trade relationship. South Korean culture is very popular 
in China, and many Chinese tourists travel to South Korea. 
Working with South Korea on this issue will have a positive 
benefit to their future relationship because it is inevitable 
that Korea one day will be unified.
    Third, all the remedies for resolving this issue are 
immediately at hand to ensure no burden on China, including the 
presence of the UNHCR in Beijing; a humanitarian network, and a 
strong commitment from South Korea and the United States to 
help resettle refugees.
    Finally, China needs to be reminded of what this regime 
really thinks of the Chinese people. Kim Jong-il had a long-
established policy known as ``Block the Yellow Wind,'' as he 
was resistant to adopting any China-style reforms.
    His racist contempt for the Chinese people was evident when 
he ordered his border guards to beat the bellies of pregnant 
North Korean females who had been repatriated because their 
unborn babies were half Chinese. This is a perfect opportunity 
for China to work with the international community rather than 
kowtow to a brutal dictatorship, frequently cited as one of the 
world's worst regimes.
    I want to close by recognizing one of your colleagues, 
Assemblywoman Park Sun-young of the Korean National Assembly, 
who began a hunger strike in Seoul, calling for China not to 
repatriate these refugees but allow them safe passage to South 
Korea. This brave woman collapsed on Friday and was rushed to 
the hospital. We urge all parliamentarians and governments 
around the world to join her in calling upon China to end their 
brutal repatriation policy and stop sending North Koreans to 
their death.
    Thank you, Mr. Chairman.
    Chairman Smith. Ms. Scholte, thank you very much for your 
eloquent statement and for your ongoing and absolutely 
tenacious advocacy on behalf of North Korean human rights in 
general, and refugees in particular. So, thank you so very 
much.
    I would like to now ask Ms. Han if she would present her 
testimony to the Commission.

STATEMENT OF SONGHWA HAN, FORMER NORTH KOREAN REFUGEE DETAINED 
  IN CHINA, REPATRIATED TO NORTH KOREA, AND DETAINED IN NORTH 
                             KOREA

    Ms. Han. Hello, my name is Songhwa Han, and I came to the 
United States with my two daughters in 2008 as refugees, 
following the passage of the North Korean Human Rights Act by 
the U.S. Congress in 2004.
    For the lowest class people in North Korea, they have a 
most desperate and earnest plea. That plea is to be freed and 
liberated to freedom and human rights from the worst suffering 
and pain of starvation.
    I want to thank the U.S. Government for hearing our plea, 
for hope, and giving us freedom. I want to just describe very 
briefly my reasons for leaving North Korea.
    I escaped with my two daughters from North Korea for the 
first time in 1998. Before defection from North Korea, my 
family consisted of eight people. My mother and my two-month-
old newborn baby son died from starvation, and my oldest 
daughter, who was 18 years old at the time, left home to find 
food and never came back. To this day I do not know of her 
whereabouts or what happened to her.
    I had another five-year-old son who I had to leave at an 
acquaintance's home before I escaped to China. I promised my 
son, if you just sleep for five nights I will be back with rice 
and candy and I will come back to get you.
    Afterward, my five-year-old son, who was suffering from 
malnutrition, was kicked out of the house I had put him in and 
died while waiting and crying out, ``Mommy, sister, when are 
you coming back? '' He cried and cried, and died in a grass 
field. This news was delivered to me by someone I had hired to 
go and bring my son to China.
    My husband was arrested and sent to jail for the crime of 
crossing the Tumen River and going to China and bringing back a 
sack of rice, when what he had done was simply to go to China 
to find food for his children and save them, who had slowly 
over time grown weaker and weaker from starvation. He died 
while incarcerated in prison from the severe punishment he 
received.
    Afterward, my family was labeled as anti-state traitors for 
having crossed over to China and the North Korean police and 
the Bowibu, or the national or domestic security agents, came 
to look for us in our countryside village home. They came to 
kick us out of the village, for me to take the remaining family 
members and move away to another place.
    Our family had devoted ourselves to the Party and to the 
dear leader, but contrary to the police in the United States, 
instead of protecting the citizens the North Korean police 
yelled and threatened to burn down our house if we did not move 
out.
    I could no longer beg for help or for mercy, and I decided 
right then and there rather than staying put and starve to 
death, even if we died trying to go find our way to freedom, I 
decided to seek out freedom.
    My one sole wish was to feed my children just one meal of 
white rice, and decided that I would never suffer from 
starvation or be unfairly mistreated, and therefore took my 
seven-year-old daughter, who was malnourished and was not 
growing up properly, put her in a sack and carried her, and 
held my older daughter's hand and leaned on one another and 
each other and crossed the waist-high currents of the Tumen 
River and safely escaped from North Korea.
    After escaping to China and living in fear for almost 10 
years, during that period we were forcibly repatriated four 
times. During one of those forced repatriations, I would just 
like to share about my experience from the time I was forcibly 
repatriated during the summer of 2003.
    First of all, once a North Korean defector was handed over 
by the Chinese police to the North Korean Bowibu, or the 
security agents, one had to become an animal.
    Second, the defectors were repatriated or ordered by the 
North Korean guards that, ``You are all dogs from now on, so 
therefore lower your head and move around by only looking at 
the ground.'' The prisoners are handcuffed and chained to one 
another, and if the slightest noise is made the prisoners are 
beaten with rifle butts.
    After the interrogation is finished at the Bowibu, the 
prisoners are taken to a reformed hard labor camp, where I was 
sent. We were forced to work from 5 o'clock in the morning 
until late at night, and after dragging our dead-tired bodies 
back from work we were only giving a fist-sized corn/rice ball 
to eat, and until 11 o'clock in the evening we were required to 
participate in self-reflection and self-criticism group 
meetings and forced to sing patriotic martial songs.
    We would then spend the rest of our night sitting in front 
of one another and picking off the ticks and lice from our 
clothes and our hair, and then sleep for a few hours, and then 
wake up early in the morning to the wake-up call and then get 
dragged out for more labor. These types of punishments were 
given out to misdemeanor criminals.
    These punishments were repeated for as long as six months, 
and like men who would die from malnutrition and starvation and 
the women prisoners who collapsed from fatigue and could not 
get up again, both women and men alike had to carry heavy logs 
up to the mountainside. If a prisoner became injured there was 
no recourse for medicine or for medical care.
    In the wintertime there was no proper footwear available, 
so pieces of cloth and strings would be used to cover up the 
feet. While working in the snow, many would come down with 
frostbite, but we could not stop work and had to continue 
working, and also continue to work the following day.
    Sometimes the men had to shovel human waste from the 
latrines with their own bare hands. The women prisoners would 
then carry the human waste, mixed with dirt, on their backs and 
carry the load into the fields. So for the crime of going to 
China for only wanting to live and not die from starvation, 
North Korean refugees who are repatriated by China become 
prisoners and end up suffering under crushing labor, doing 
construction work or coal mining work, and become sick or 
injured, or worse, suffer in misery and pain and die while 
working under horrendous conditions. The wretched and poor 
North Korean refugees continue to suffer like this, and the 
misery is never ending.
    For the crime of betraying the nation, in the Bowibu, the 
domestic or national security agency prisons, the North Korean 
refugee men who were forcibly repatriated were beaten with 
steel pipes and countless people died from beatings inflicted 
on them, where arms and legs were broken.
    I, myself, was beaten in the head for the crime of having 
gone over to China, and I was beaten so severely that my skull 
still has pieces of bone imbedded in my head. Besides this 
injury, because I was beaten so severely and punched around so 
much, my eyes became swollen and one of my eardrums ruptured. 
To this day I am hard of hearing in one ear.
    While we were suffering from thirst, there was no water to 
drink and the prisoners would end up drinking foul water from 
the water tanks or wells and come down with colitis, and die 
without any care or treatment given to them.
    North Korean refugees, if they are miraculously able to 
survive and be released from prison or from the reform labor 
camps, will attempt to escape from North Korea even if it means 
death if caught again.
    Through this hearing today I earnestly plead and beg of 
you, refugees of other countries have been accepted in the 
United States numbering in the tens of thousands of people or 
more. But after the North Korean Human Rights Act passed in 
2004, only about 130 North Korean refugees have been granted 
asylum in the United States.
    These defectors, who have been separated from their 
parents, separated from their children, these defectors who 
have no place to go, these North Korean refugees who are 
shuddering in fear in China right now and desiring freedom in 
the free world, whether it be South Korea or the United States, 
desire to be rescued and accepted into freedom.
    If 100 North Korean refugees were accepted after the Human 
Rights Act passed we would have more than 1,000 North Korean 
refugees in the United States by now. Those who long to go to 
the United States and who travel to Thailand and were 
incarcerated in the detention camps in Thailand, who long to go 
to the United States, because the wait period was so long, 
waiting for many months, they decided to change their 
destination to South Korea and ended up going to South Korea 
instead.
    I sincerely hope that the United States will accept the 
North Korean refugees, like South Korea. Being accepted into 
the United States is the wish of many North Korean refugees in 
earnest, and on their behalf I make this request to all of you 
here today.
    I pray that for those North Korean refugees who are in the 
period of uncertainty, that you will deal with China intensely 
and help rescue the North Korean refugees in China right now. 
Please help us, the North Korean refugees. Thank you.
    Chairman Smith. Ms. Han, thank you very much for your 
testimony. You and your daughter are surely not just victims 
and survivors, but you are women of courage who bring a message 
to Washington and to the world that it must hear. You talked 
about the misery being never ending. You talked about the 
unspeakable cruelty. The whole world needs to hear your 
message. So, I thank you so very much for your being here today 
and bravely offering your commentary.
    I would like to now ask Ms. Jo if she would present her 
testimony.

STATEMENT OF JINHYE JO, FORMER NORTH KOREAN REFUGEE DETAINED IN 
 CHINA, REPATRIATED TO NORTH KOREA, AND DETAINED IN NORTH KOREA

    Ms. Jo. Hello. My name is Jinhye Jo, and I am a North 
Korean defector. I want to first extend my greeting and deep 
appreciation to God, the U.S. Government, and the American 
people for allowing me the freedom to speak before you at this 
place, and also for the fact that I live in America, a place 
which is like heaven to me.
    In North Korea, one cannot dream of going to Pyongyang 
freely unless you were a part of the inner circle of Kim Jong-
il. However, I am now living in the Washington, DC area, the 
capital of the United States, and I am here today to make an 
earnest request.
    With the desire to fill our hungry stomachs, we escaped to 
China to seek the freedom that my mother spoke of. However, 
what awaited us were the Chinese police and the security 
officials who were obsessed with searching for, and arresting, 
North Korean defectors and human traffickers who did not see a 
mother of two daughters, but rather a source of money-making.
    My younger sister and I were young and naive, and were just 
so glad to be able to eat white rice for a meal. But we always 
lived in fear, that one morning when we woke up our mother 
would be taken somewhere to be sold or that she would abandon 
us and leave us.
    By chance, I happened to find God and became a Christian at 
a small countryside church, and through the grace of God and 
His protection, even though I was forcibly repatriated four 
times to North Korea, I did not die from beatings, I did not 
die from starvation, and I was able to survive and live.
    The North Korean Bowibu, or national security agency, 
officials strip-search the defector women who are sent back, 
searching every article of clothing to look for hidden money or 
contraband. If nothing of value is found among the clothing, 
the prisoners who are standing are told to put their hands on 
their head and forced to sit and stand up repeatedly until they 
collapse from exhaustion. If they do collapse, they are 
relentlessly slapped.
    An elderly grandmother who was 65 years old and next to me 
in the interrogation cells said she could not move any further 
and she was immediately and mercilessly slapped and beaten, 
while another young girl and I had our heads bashed against the 
wall repeatedly.
    After the interrogation was over and while in transit to 
the prison cells, one of the prisoners had talked back to the 
security guard and we were then mercilessly kicked by the 
guard, who was wearing boots. We were placed in cells that were 
crawling with insects and, while trying to sleep at night, 
because the space was so limited, we literally had to sleep on 
top of other prisoners.
    As a woman, it is hard for me to describe what I saw and 
experienced, but I want to speak out today with courage for the 
countless North Korean refugees who have suffered under North 
Korea's evil and its violation of human rights. North Korean 
refugees swallow money wrapped in plastic when escaping to 
China.
    During arrest by the Chinese authorities and forced 
repatriation to North Korea and then going to prison, the money 
that is expelled naturally is peeled of its soiled plastic and 
swallowed again. Another way of hiding money for women is to 
hide the money in the womb or in the anal cavity.
    There was an incident at the Bowibu facility in the Sinuiju 
in North Korea where a 16-year-old girl's hymen ruptured and 
she was hemorrhaging blood. The Bowibu agent used a rubber 
glove used in washing clothes to check for money or contraband 
in her vagina, and due to the reckless searching the agent had 
ruptured her hymen.
    In their quest to search for money and to rob the prisoners 
they stopped at nothing, using all kinds of methods and means 
to do so. A lot of the women prisoners also attempted to give 
the money they took pains to hide to the security agents with 
the hope of being shown leniency or being let go.
    I remember vividly what happened to a North Korean refugee 
woman with a baby conceived with a Chinese man, who was 
repatriated. The head Bowibu security agent cussed profanities 
at her, yelling at this woman that she was someone who carried 
a Chinese seed. He then proceeded to torture and beat her with 
steel hooks by hitting her on the side of the head and forcing 
her to sit and stand repeatedly for 500 times, until she 
collapsed.
    North Korean agents continued to pour out obscenities such 
as ``dirty bitch'' at the woman lying on the floor, and after 
they picked her up and sat her down on the floor the agents 
then beat her in the head with a wooden block and caused her 
nose to bleed and her blood from the beatings splattered all 
around her in the interrogation room. I saw this with my own 
eyes. This is one example.
    There were situations where we were bitten by bugs and we 
suffered from inflammation. When the temperatures got so cold 
and some prisoners were crying out in pain from frostbite, the 
security guards would punish everyone in the cell.
    When my family was repatriated for the last time my mother 
was hauled to be beaten and tortured. Hearing our mother's 
blood-curdling screams, my sister and I froze instantly with 
fear as if our hearts stopped. The head Bowibu agent began to 
torment and scare us by saying that if we told the truth our 
mother would not be hit.
    Despite this, we did not dare open our mouths. He grabbed 
our heads by our hair and began hitting us. The pain that was 
inflicted on us was so bad, we could not lay our heads down 
properly to sleep for about two weeks.
    Another form of punishment and torture I received in the 
interrogation room was where I was forced to kneel down and a 
wooden plank was placed between my thighs and between my bent 
legs. Every time I answered ``no'' to a question I was kicked, 
and that would cause me to bowl over. The plank that was placed 
was tremendously painful, and this was the one way that I was 
tortured and beaten.
    Other forms of beating and torture that I received after 
being forcibly repatriated by the Chinese authorities, were in 
one instance, where I was forced to stand on tip-toes and then 
mercilessly kicked and beaten, kicked and beaten to 
unconsciousness while forced to kneel, and then the security 
agents would wake me up with water splashed from an ashtray.
    All these methods of severe and cruel punishment were to 
try to find out whether the North Korean refugees had attempted 
to eventually escape to South Korea or whether we had attended 
church or come into contact with Christians while in China.
    Our family, I believe, was miraculously saved through God's 
special grace and mercy. I also believe that God saved me so 
that I would be able to tell the world the plight of the North 
Korean people's unfair suffering and the worst modern-day evil 
that is going on right now.
    When I think of the almost three-dozen North Korean 
refugees who will be experiencing torture and fear on a far 
worse scale than what I went through, I am filled with dread 
and fear and my heart aches so much. The North Korean regime, 
under Kim Jong-un, has declared that any North Korean that 
attempts to escape during the mourning period for Kim Jong-il 
will be dealt with most severely, and these refugees who have 
embarrassed the regime and sought the world's attention to save 
them will surely be punished to three generations and be given 
the harshest sentence if they are repatriated by China.
    I sincerely and earnestly request that all of you here 
today, and for those throughout the world who will hear this 
hearing, that the good fortune and privilege we have now of 
living in freedom will become a reality for those more than 30 
North Korean refugees currently being held by China, only 
through your combined attention and effort.
    I sincerely and earnestly request that you will help save 
the precious lives of the more than 30 North Korean refugees, 
lives that are more precious than anything in this world, 
through talking with the government of China, the government 
that, even as they are pushing down people who are drowning, 
reaching out their hands to be rescued.
    In the United States alone, over 100,000 people have signed 
a petition on behalf of saving these 30 North Korean refugees. 
I know that, because of the attention of this petition, they 
are not alone. I never had any idea that the people that we 
were brainwashed and taught to hate as sworn enemies, Americans 
such as Suzanne Scholte and the distinguished people sitting 
before me, that I would be sitting here before you and speaking 
before you today.
    I sincerely wish that the fear and terror that they are 
feeling, which is what I am feeling also, will be felt together 
as well by all of you, all of us here, and I sincerely and 
earnestly pray that God will help them. This stack of paper 
here is the petition signed by the people for the refugees that 
have been arrested in China recently.
    Thank you.
    Chairman Smith. Ms. Jo, thank you so much for your 
testimony. You have laid out again, like your mom, information 
that the Congress, the Obama administration, the United 
Nations, any country that recognizes and prizes human rights 
and international law cannot ignore--torture, blood-curdling 
screams from your mother, fists, logs being used in beatings.
    Yet, you conclude by saying, ``Our family, I believe, was 
miraculously saved through God's special grace and mercy. I 
also believe that God saved me so that I would be able to tell 
the world the plight of the North Korean people's unfair 
suffering and the worst modern-day evil that is going on right 
now.''
    What a tremendous witness, that all people hear this, that 
the President of the United States hears what you have said so 
eloquently today. So, thank you so much for providing that 
witness to this Commission. We hope to amplify your message and 
to take very bold action ourselves.
    Before I get to some questions I would like to yield to my 
good friend and colleague, Mr. Royce, who does have to leave, 
for any statements or questions he might have.
    Representative Royce. Thank you. I would like, Mr. 
Chairman, to ask a question of Suzanne Scholte. During the 
horror of the Third Reich, at the waning days of that war when 
Dachau was liberated, my father had his brother's camera and he 
took photographs there of the bodies stacked like cord wood 
next to the ovens where they were being burned, the people 
starved to death in the box cars. The photographs, by the way, 
of the prisoners, the uniforms, are almost identical. The 
striped uniforms, the uniforms you see, these children that are 
taken that are held in these work camps in North Korea.
    Here is the question my father asked me recently. He said, 
inasmuch as presumably we did not have the intelligence on what 
was going on as 6 million people were liquidated in these 
concentration camps, presuming that was the case, we had some 
excuse for not knowing what we were walking into.
    But how does the world today live with its conscience that 
we have the evidence that this is going on as we speak, that we 
have the defectors, the survivors, and yet when we say never 
again to this kind of conduct the international community does 
not speak with one voice to put the kind of pressure on this 
and elevate this to the level that the North Koreans are forced 
to deal with it. Could I ask you that question? What's your 
thought?
    Ms. Scholte. It is an excellent question, a very hard one 
to answer. But I will try to do that. I think that having been 
involved in this issue for some time, when we first started 
bringing defectors from North Korea to testify in the United 
States, in 1996, people did not believe it. It is much like 
what happened--in the 1940s--when people were trying to say, 
``This is what the Nazis are doing right now to the Jewish 
people.'' People were like, ``There is no way, I can't believe 
that.''
    But now we have 23,000 eyewitnesses. They tell the same 
story. I think the challenge has been, first of all, our 
reliance on being able to see things first-hand. The reporters, 
Laura Ling and Euna Lee, are an example. These two reporters 
went to China to try to record what was happening to North 
Korean women. North Korean women are being bought and sold 
right now in China. They went to tell the story, and you know 
what happened to them. They ended up in Pyongyang.
    Representative Royce. I worked long and hard to try to 
assist the two of them.
    Ms. Scholte. Yes. But I think that----
    Representative Royce. And they were American citizens and 
you saw what they went through.
    Ms. Scholte. Exactly. So I think part of the challenge is 
being able to see the political prison camps. That is why the 
work of the Committee for Human Rights in North Korea is so 
important, because they have documented this from survivors. 
They have showed it. But we only have satellite images. No 
reporters have been inside a political prison camp. That is 
always the challenge that we have with the media trying to 
cover things. Also, the problem also is----
    Representative Royce. But it is not that difficult. I mean, 
Mr. Shin--you can see the burns on his body. You can see the 
scars, the horrific scars. There is no operation that would 
ever inflict the kinds of things that you and I have seen on 
the defectors we have interviewed.
    Ms. Scholte. No, you are exactly right. That is why what we 
have done is bring the--we cannot go to the political prison 
camp and we can't go to China. That's why we've brought the 
traffic victims here. That is why we brought the survivors of 
the political prison camps here so people could hear their 
stories.
    But I think another challenge is how South Korea has 
responded to this. I think that, for example, the U.S. Congress 
is united on this. They have passed, two times now, the North 
Korean Human Rights Act, bipartisan. We have seen the same type 
of action taking place in Japan. We have seen the United 
Nations recognize the severity of the human rights abuses in 
North Korea by appointing a special rapporteur.
    But South Korea has yet to pass a North Korean Human Rights 
Act. There is such a division in South Korea, that is, to me, a 
huge problem. I am glad that they dispatched diplomats to go to 
Geneva to bring this issue up with the Human Rights Council, 
but they should have dispatched diplomats to Beijing.
    Representative Royce. But you saw that Beijing refused to 
let Parliamentarian Park into the country. She is not going to 
be allowed a visa to go into the country.
    I passed a resolution here. I have written to 200 
parliamentarians, 62 different countries that are part of our 
International Parliamentarian Coalition on North Korean 
Refugees and Human Rights. We do have a lot of parliamentarians 
around the world taking action.
    But I would turn it back to this country and I would say, 
under the prior administration and under this administration we 
have not pursued policies that would cut off the life support 
for North Korea. You and I know that over in Treasury, when 
they put the freeze on assets, Banco of Delta Asia, in order to 
make it impossible for them to continue their military build-
up, that put Kim Jong-il in a terrible position. He could not 
pay his generals.
    We have heard from the defectors, like the former 
Propaganda Minister, that the resources they get their hands 
on, the food they get their hands on, goes to feed the military 
or is sold on the food exchange in Pyongyang for hard currency 
that they can put into their weapons program.
    Fifty percent of the support for that regime comes through 
illicit activities that we could close down with an anti-
proliferation initiative that we once had in place, or by 
freezing the bank accounts so that they cannot have access to 
the money to do this.
    Why isn't it time to implode this regime or put the kind of 
pressure that, in the past, worked on bringing down other 
regimes? South Africa is an example. Sanctions brought down 
South Africa, or ended apartheid in South Africa. Why not a 
concerted effort in North Korea?
    Instead of the new food aid, which I think, just as in the 
past, is going to get to the military and help prop them up, 
why not a serious effort to, once and for all, change this 
situation since the aid never gets out to the ``No-Go'' areas 
in the countryside? We have had French NGOs testify that they 
followed the food aid being sold on the exchange for hard 
currency.
    Ms. Scholte. Right. Well, you know I totally agree with 
you. I think it was a real tragedy that George Bush, who cared 
and actually met with defectors, actually met with the head of 
Free North Korea Radio, who I quoted in my testimony, actually 
met with Kang Chul Hwan, a survivor of a political prison camp, 
actually met with the Hanmee family, one of the families that 
we helped rescue, had a heart for this issue, but he ended up 
becoming a money launderer for Kim Jong-il, using our own 
Treasury Department to return the money from the Bank of Delta 
Asia scandal.
    Representative Royce. I will close with this: how can we 
better deploy Radio Free Asia [RFA] and Voice of America [VOA]? 
We have heard the defectors now tell us that there are people--
including governmental defectors, right? Now we are getting 
officers and high-ranking civil servants that are listening to 
VOA and RFA. Are there other ways that we can get information 
into North Korea, just as we did into the East Bloc, that sort 
of changed the paradigm? What do you think would be most 
helpful?
    Ms. Scholte. Well, absolutely continuing to support the 
defectors' broadcasts, like Free North Korea Radio. But also, 
we do balloon launches regularly. We can tell, by how the 
regime reacts, the things that are most effective. They 
absolutely cannot stand the balloon launches. They do not like 
the defector's radio programs--they have been trying to 
assassinate Free North Korea Radio director Kim Seong-min for 
years.
    I also think that helping and getting as much information 
as possible into North Korea through every means possible. We 
have cell phone technology now. There are a lot of North 
Koreans that have cell phones. We are trying to get things in 
through China.
    On the food aid, and I tried to articulate this to the 
Obama administration, Obama is in a unique position because he 
can articulate--he should be saying, we know you are hungry. We 
know that most North Koreans spend their days trying to figure 
out how they are going to feed their families. Obama can send a 
very strong signal that we want to get food aid, we want to 
help you, but we are not going to give you the food aid unless 
we know we can stay there to see it consumed.
    The critical thing is being there at the point of 
consumption. If we are not there at the point of consumption it 
is 100 percent diverted. We have got to see it utilized by that 
orphan or by that starving elderly person. We should not 
provide any food aid unless we can see it at the point of 
consumption. We can certainly send that message and that is 
certainly something that President Obama should do.
    Representative Royce. Thank you. I thank our other very 
brave witnesses here today.
    Chairman Smith. Let me just ask, if I could, and maybe to 
you, Ms. Scholte, what has the United Nations, the UNHCR, for 
example--what is Ban Ki-moon--a Korean, former member of his 
own government in South Korea who obviously must know, or must 
be painfully aware of exactly what these refugees go through. 
What have they done? We know that President Lee [of South 
Korea] has raised it. He has raised it with the Foreign 
Minister of China.
    I am wondering if there have been any appreciable or 
discernible changes since that conversation, or no. Why hasn't 
the UNHCR responded? I would just point out, and you might 
respond to this, Michael Horowitz, who is one of the architects 
of the North Korean Human Rights Act of 2004, has underscored 
and stressed the importance of, if the UNHCR continues to be 
denied full access to the North Korean refugees, the UN High 
Commissioner could initiate a binding international arbitration 
proceeding against the Government of China, as authorized by 
the UNHCR China Treaty of December 1, 1995. So there is a 
mechanism. It is ripe, like low-hanging fruit, standing there 
and waiting to be utilized. What accounts for the apparent lack 
of interest? Why hasn't it been used?
    Ms. Scholte. Well, I am not an expert on that issue, but I 
know you're going to be talking about it in the next panel.
    Chairman Smith. Yes.
    Ms. Scholte. But my understanding is you have to have a 
country that is willing to pursue that in the United Nations, 
like to carry the water on the binding arbitration.
    Chairman Smith. Like the United States?
    Ms. Scholte. To take the lead on it.
    Chairman Smith. Like the United States?
    Ms. Scholte. Like the United States. My understanding is, 
any country can do that but no one has taken the lead.
    As far as UNHCR and Ban Ki-moon, they have been completely 
ineffectual.
    Chairman Smith. Say that again. Completely what?
    Ms. Scholte. Ineffectual. No effect. They have done 
nothing. They have done neither. I think the UNHCR, though--I 
will say this, that I know that whenever we have called out to 
them and appealed to them for help, they have tried to help. 
The problem is, as long as China refuses to acknowledge that 
these are refugees and not economic migrants, then the UNHCR's 
role is minimized because they have to have the permission of 
the host government to do something. That is why, even though 
there was funding that was provided in the North Korean Human 
Rights Act, nothing was ever authorized because you have to 
have the permission of the host government. So the real problem 
is China.
    Congressman Royce is right, the campaign by the 
parliamentarians, this is another important thing. They 
responded. China and North Korea--you can see their reactions, 
they don't want to make this an international problem. That's 
why we have to do this, and that's exactly what you're talking 
about. The international community has to be involved 
aggressively on this, as well as South Korea and the United 
States, in taking a lead.
    Chairman Smith. Ms. Jo, you mentioned how the North Korean 
officials, the security agents, had suggested that the woman 
was a ``bitch'' who carried Chinese seed. I am wondering if you 
detected racial bigotry on the part of North Korean officials 
toward the Chinese and why the Chinese Government is not upset 
over that kind of racial bigotry.
    Ms. Jo. To answer your question, yes, those North Koreans 
who went to China just to seek food and come back would be less 
severely treated because they just went to search for food and 
to lessen the hunger situation.
    But those who went to China and became pregnant are deemed 
by the state as ones who gave up North Korea, who went to 
China, got pregnant, and are deemed to have wanted to settle 
down in China and give up North Korea. So that is why they 
would be seen as a traitor and be even more harshly treated and 
severely punished.
    Chairman Smith. Do Chinese officials and North Korean 
agents work together and target refugee communities in China? 
Yes, Suzanne?
    Ms. Scholte. Yes. Absolutely. The North Korean security 
agents and the Chinese security agents are in total collusion. 
That is why, for China to deny them refugee status when they 
full well know that these North Koreans are going to be 
subjected to horrible abuse when they get sent back--this has 
been a steady problem. North Korea actually has been using 
spies that pose as defectors to try to break up these escape 
routes, the underground railroad.
    That is what happened with this latest group. There were 
North Korean agents that were posing as defectors and that is 
how this last group got arrested, because the group got sent to 
detention but some of the defectors got released because they 
were North Korean agents. So they are definitely working very 
closely together.
    Chairman Smith. Let me just ask you, in total candor, has 
the United States raised the issues of these defectors in a 
robust manner? And that would be the Secretary of State Hilary 
Clinton, President Obama. We recently had the Vice President of 
China here in the United States. Was it on the agenda?
    Ms. Scholte. I don't know. I was kind of hoping somebody 
would ask Secretary Clinton that question last week when she 
testified before the House Foreign Affairs Committee.
    Chairman Smith. We ran out of time.
    Ms. Scholte. We did call very strongly on Vice President 
Biden, President Obama, and Secretary Clinton when the Vice 
Premier of China was here to raise this issue with China, and 
we know from friends in the Senate, we know this was raised 
with them but we don't know whether they raised the issue with 
the Chinese.
    Chairman Smith. Without revealing any methods--and I'll 
just ask two more questions--how do family members in China 
communicate to their family members in North Korea, or do they 
communicate? If it is going to, in any way, compromise any of 
those methods, please don't answer it.
    Ms. Jo. There are basically two methods. Ethnic Chinese-
Korean, or ``joseonjok'' traders or merchants who are able to 
travel from China to North Korea, would be the ones who would 
carry cell phones. Through these merchants or traders, they 
would be in touch with family members in North Korea. Of 
course, they would be paid, given money to go to carry on these 
transactions of giving the phones to the family members.
    Through that method they would be able to communicate with 
family members in China, with the family members in North 
Korea. Another method is, North Korean defectors who resettled 
in South Korea or the United States would send money or they 
themselves would actually send the phones to the people, their 
contacts in China, and that would be another method of being 
able to communicate with family members in China and North 
Korea, between the two.
    However, now because the North Korea regime knows about the 
prevalent use of the cell phones, the North Korea regime has 
brought in cell phone surveillance equipment and is catching 
these North Korean citizens talking with their relatives back 
in China. There are known instances of North Korean citizens 
who have been arrested by the state and incarcerated for the 
crime of speaking and using a cell phone illegally.
    Chairman Smith. Thank you.
    Before going to the second panel, just let me thank you, 
Ms. Scholte, Ms. Han, Ms. Jo, for your extraordinary 
testimonies. I would like to ask if there is anything you would 
like to say before we go to our second panel?
    Ms. Han. Our family of eight was reduced to just three, 
myself and my two daughters. We are now here. We came to 
America and we are living in freedom. We are so grateful and 
thankful for that. While we were in China, the three of us, we 
were repatriated four times.
    That fear, that dread that I felt at that time was that my 
family, that was reduced to just two daughters, I might even 
lose my remaining two daughters now. That is the fear and the 
dread that I felt at that time. I know that the 30 or so North 
Korean refugees that are being held by China right now, I know 
that they are feeling the same feeling of dread, fear, and 
terror. I know that they are looking to the United States to 
help them and to rescue them.
    I just want to conclude by saying that the U.S. Government 
should forcefully raise this issue and pressure the involved 
people, the Chinese Government, so that repatriation will not 
occur and that these refugees will be able to go to South Korea 
or the United States, and many years down the road that these 
refugees, these defectors who start new lives in freedom, in 
free countries, will be able to grow and become successful 
people, and later on that they in turn will go back to a free 
North Korea and make that country prosperous just like the 
other free nations of the world. Thank you.
    I would like to conclude by saying that many people 
throughout the world have signed the petition, as can be seen 
in this stack of papers here, and many people are fighting for 
and caring about this issue. So, thank you very much.
    Ms. Scholte. I just wanted to thank you very much, 
Congressman Smith, for your continuing focus on North Korean 
human rights, and for the media that's here. This is a huge 
embarrassment to China that more and more people know about 
this issue, and this is the pivotal time when we can convince 
the Chinese to change this.
    If we do not do it now, there are going to be more and more 
horror stories as they have told more and more people. It is 
literally a matter of life and death for those refugees that 
are being held by China right now. So, I just want to thank you 
for your continual focus on this.
    I did want to mention, on a very positive note, and I just 
want to share with you that your two witnesses are going to be 
part of the American delegation for North Korean Freedom Week, 
which will be in Seoul in April. So for the first time we are 
going to have North Korean defectors that are part of the 
American delegation, and I think it is going to send a very 
positive sign to the people of North Korea.
    Ms. Jo. Representative Smith, I would like to conclude by 
saying that, as Suzanne mentioned previously, the balloon 
launches, radio broadcasts by stations like Free North Korea 
Radio, those are important. But the third thing I would like to 
add is that in Chinese cities, there are many North Korean 
refugees.
    If the U.S. Government, and especially the Korean-American 
churches in America, can find ways or means to help them to be 
able to resettle in South Korea or the United States, that 
would be of great help. In my personal case, Pastor Philip 
Buck, a Korean-American pastor, was instrumental. He, along 
with other Korean-American pastors, was instrumental in saving 
my family and bringing us to the United States. Thank you.
    Chairman Smith. Thank you. Appreciate it so much.
    I would like to now ask our second panel to make their way 
to the witness table, beginning first with T. Kumar.
    T. Kumar is Amnesty International's Director for 
International Advocacy. He has testified before the U.S. 
Congress on numerous occasions to discuss China's and North 
Korea's human rights abuses. He has served as a human rights 
monitor in many Asian countries, as well as in Bosnia, 
Afghanistan, Guatemala, Sudan, and South Africa.
    We will then hear from Mr. Greg Scarlatoiu, who is 
Executive Director of the Committee for Human Rights in North 
Korea in Washington, DC. He plans, coordinates, manages, and 
conducts research and outreach programs to focus world 
attention on human rights abuses in North Korea. He has 
authored a weekly radio column broadcast by Radio Free Asia to 
North Korea for nine years, and numerous English and Korean 
language articles on Korean peninsula issues.
    We will then hear from Mr. Michael Horowitz, who is Senior 
Fellow at the Hudson Institute in Washington. He is also the 
Director of the Hudson Institute's Project for Civil Justice 
Reform, and Project for International Religious Liberty. He has 
written frequently on North Korean issues and human rights 
topics and is regularly called to testify and consult with 
Congress. As I said earlier, he was one of the principle 
architects of the North Korea Human Rights Act of 2004, and 
that is putting it mildly in terms of his role. So, thank you, 
all three, for being here.
    We will begin with Mr. Kumar.

  STATEMENT OF T. KUMAR, DIRECTOR FOR INTERNATIONAL ADVOCACY, 
                   AMNESTY INTERNATIONAL USA

    Mr. Kumar. Thank you very much, Chairman Smith.
    First of all, Amnesty International is extremely pleased to 
be here to express our concern and the information we have 
about the plight of a group of people in China who have been 
not only abused by one country, but by two countries--in this 
case, China and North Korea.
    Above all, the people who have fled North Korea have fled 
out of desperation, out of desperation because of famine, 
because of political oppression. When they flee, instead of 
getting protected, they have been abused by the Chinese and 
also by the North Koreans.
    So I would like to, first, give you a glimpse of what is 
happening in North Korea, for the people of North Korea, for 
them to be so desperate to flee to a country where they get 
abused themselves. The famine situation is extremely dire 
there. Thousands have died.
    Even the food distribution system has been staggered into 
who are supporters of government, then who are not hostile, and 
hostile to government. So the lowest bottom of the hostile to 
government category, they do not get enough food. As a result, 
we have seen famine and death. Also, we have documented 
numerous abuses in prison camps there, a large number of prison 
camps there.
    So as a result, we have seen thousands crossing over to 
China to flee this persecution and economic hardship. When they 
flee, they go through two difficult aspects. The first one is, 
they are illegals there. Basically, China never accepts them, 
that they are fleeing because of political persecution or any 
other reason. So they consider them as economic migrants and 
their policy is to expel them.
    So these people are pretty much illegals, so they survive 
by the help of some ethnic Koreans in the border areas, working 
in farms, working in other odd jobs, and some people even beg 
to survive. Above all, since they are illegals, they get abused 
by everyone, including the employers, including by the Chinese 
authorities.
    Above all, Chinese authorities have special units that go 
after these people and track them down to find out who these 
people are, then deport them. That is one piece of it. The 
second piece that disturbs everyone is that the Chinese 
Government also allows North Korean agents to cross into their 
country and do their arrests and detention and abduct them back 
to North Korea.
    So these people, when they come, they go through hardships 
on one side and then abuse by North Korean agents, as well as 
the Chinese agents. China never allows UN groups and also human 
rights organizations like Amnesty International, or anyone, 
even to visit or to monitor what is happening to these groups 
of people.
    So these people are kind of left to themselves and fearful 
anytime of what will happen to them when they get returned. So 
when they get returned, usually they are considered traitors 
and people who have betrayed their motherland, in this case, 
North Korea. So, they have severe punishments.
    So imagine before they leave they were normal people, but 
when they leave out of desperation they become refugees and the 
Chinese Government never recognizes them as refugees. When they 
kick them out, they become criminals in their own country.
    Now, as you mentioned earlier in your opening remarks, 
there are new statements coming out from the current new 
Government of North Korea that anyone who flees will be 
persecuted more intensely. So when these people return they get 
detained, tortured, and we have also documented executions. 
They are sent to labor camps, and we have documented and we 
have interviewed people who have certified to us that they have 
seen public executions because of the only crime that they 
crossed into China just to basically survive.
    Coming back to China, the Chinese Government is able to do 
these things for a couple of reasons. One just relates to North 
Korea. They have an agreement, a bilateral agreement with North 
Korea, which is an illegal agreement whereby they agree--both 
countries have this agreement so that they will return anyone 
who is here.
    The other aspect is the most disturbing fact--the 
international community's silence on this issue--silence, for 
different reasons. Above all, the silence of our country, the 
United States, is also disturbing. You mentioned earlier about 
the vice president's recent visit. We are not aware of the 
Obama administration raising this in a vigorous manner. That is 
extremely disturbing.
    So we have some proposals immediately to the Obama 
administration. There are two dialogues coming up. One is the 
U.S.-China Security and Economic Dialogue. We want this issue 
to be one of the other issues--you know, there are other human 
rights issues in China--to be discussed in a very high-level 
manner during this Security and Economic Dialogue with China.
    Second is, of course, the Annual Human Rights Dialogue. So 
unless the United States makes this a priority we are going to 
see that the group of people who have fled and are getting 
abused by two countries are going to continue being faced with 
more abuses because of no fault of them. These people are 
pretty much victims, so we are seeing the victims get 
victimized through no fault of their own.
    The other thing that the United States can do is to raise 
it in the UN system. I am sure other panelists will be able to 
discuss that. They should raise it in a more vigorous manner.
    Thank you again, Mr. Chairman, for inviting us and we 
appreciate it. I want our testimony to be on the record.
    Chairman Smith. Mr. Kumar, thank you very much for your 
testimony.
    I would like to now call on our second witness, Mr. 
Scarlatoiu.
    [The prepared statement of Mr. Kumar appears in the 
appendix.]

STATEMENT OF GREG SCARLATOIU, EXECUTIVE DIRECTOR, COMMITTEE FOR 
                  HUMAN RIGHTS IN NORTH KOREA

    Mr. Scarlatoiu. Chairman Smith, on behalf of the Committee 
for Human Rights in North Korea, thank you for inviting me to 
speak with you at this hearing today.
    Our committee considers it essential to draw attention to 
the case of 30 to 40 North Koreans who have been arrested by 
China and who now risk being forcibly returned to North Korea, 
where they most assuredly will be subjected to severe 
punishment, in violation of international refugee and human 
rights law.
    The fundamental rights to leave a country to seek asylum 
abroad and not to be forcibly returned to conditions of danger 
are internationally recognized rights which China and North 
Korea must be obliged to respect.
    Mr. Chair, the Committee for Human Rights in North Korea is 
a Washington, DC-based non-governmental organization [NGO] 
established in 2001. Our committee's main statement has been 
prepared by Chair Roberta Cohen, who is unable to be here 
today. I will draw upon the statement in my oral remarks.
    Over the past two decades, considerable numbers of North 
Koreans have risked their lives to cross the border into China. 
They have done so because of starvation, economic deprivation, 
or political persecution. It is estimated that there are 
thousands, or tens of thousands, in China today.
    Most are vulnerable to forced returns, where they will face 
persecution and punishment because leaving North Korea without 
permission is a criminal offense. Yet, to China, all North 
Koreans are economic migrants and over the years it has 
forcibly returned tens of thousands to conditions of extreme 
danger.
    We, therefore, submit that North Koreans in China merit 
international refugee protection for the following reasons:

          (1) A definite number of those who cross the border 
        may do so out of a well-founded fear of persecution on 
        political, social, or religious grounds that will 
        accord with the 1951 Refugee Convention.
          (2) The reasons why the North Koreans flee to China 
        go beyond the economic realm. Those who cross the 
        border into China for reasons of economic deprivation 
        are often from poorer classes without access to the 
        food and material benefits enjoyed by the privileged 
        political elite.

Subject to Korea's songbun social classification system, their 
quest for economic survival may be based on political 
persecution. Examining such cases in a refugee determination 
process might establish that certain numbers crossing into 
China for economic survival merit refugee status.

          (3) By far the most compelling argument why North 
        Koreans should not be forcibly returned is that most, 
        if not all, fit the category of refugees sur place. As 
        defined by the UN High Commissioner for Refugees 
        [UNHCR], refugees sur place are persons who might not 
        have been refugees when they left their country, but 
        who become refugees at a later date because they have a 
        valid fear of persecution upon return.

    North Koreans who leave their country for reasons including 
economic motives have valid reasons for fearing persecution and 
punishment upon return. Accordingly, UNHCR has urged China not 
to forcibly return North Koreans and has proposed a special 
humanitarian status for them so that they can obtain temporary 
documentation and access to services and not be repatriated.
    China, however, has refused to allow UNHCR access to North 
Koreans in border areas where it could set up a screening 
process. It considers itself bound by an agreement it made with 
North Korea in 1986, obliging both countries to prevent illegal 
border crossings, which replaced an earlier 1960 agreement.
    It also stands by its local law in Jilin Province which 
requires the return of North Koreans who enter illegally. Both 
documents stand in violation of China's obligations under the 
1951 Refugee Convention, which it signed in 1982, and its 
membership in UNHCR's Executive Committee and the human rights 
agreements it has ratified, including the Convention Against 
Torture and the Convention on the Rights of the Child.
    Most North Koreans in China have no rights and are 
vulnerable to exploitation, forced marriages, and trafficking, 
as well as to forced returns, where they will face persecution 
and punishment. Our committee's report, ``Lives for Sale: 
Personal Accounts of Women Fleeing North Korea to China'' 
(2010), documents the experiences of North Korean women in 
China and the extreme lack of protection for them.
    To encourage China to fulfill its international obligations 
to North Koreans in its territory, our committee puts forward 
the following recommendations:

          (1) The U.S. Congress should consider additional 
        hearings on the plight of North Koreans who cross into 
        China to keep a spotlight on the issue and try to avert 
        forced repatriations to conditions of danger.
          (2) Members of Congress should consider supporting 
        the efforts of the Parliamentary Forum for Democracy, 
        established in 2010, so their joint inter-parliamentary 
        efforts can be mobilized in a number of countries on 
        behalf of the North Koreans endangered in China.
          (3) The United States should encourage UNHCR to raise 
        its profile on this issue. It further, should lend its 
        full support to UNHCR's appeals and proposals to China 
        and mobilize other governments to do likewise in order 
        to make sure that the provisions of the 1951 Refugee 
        Convention are upheld and the work of this important UN 
        agency enhanced.
          (4) Together with other concerned governments, the 
        United States should give priority to raising the 
        forced repatriation of North Koreans with Chinese 
        officials, but in the absence of a response should 
        bring the issue before international refugee and human 
        rights fora.
          (5) The United States should consider promoting a 
        multi-lateral approach to the problem of North Koreans 
        leaving the country.
          (6) The United States should consider ways to enhance 
        its readiness to increase the number of North Korean 
        refugees and asylum seekers admitted to this country. 
        Other countries should be encouraged as well to take in 
        more North Korean refugees and asylum seekers until 
        such time as they no longer face persecution and 
        punishment in their country.

    Thank you, Mr. Chairman and members of the Commission. I 
look forward to answering any questions you might have.
    Chairman Smith. Mr. Scarlatoiu, thank you very much for 
your testimony and for your insights, as well as your very 
specific recommendations, and Mr. Kumar's as well. That was an 
extraordinary testimony.
    Now I would like to welcome Mr. Horowitz and ask him to 
present this testimony.

 STATEMENT OF MICHAEL HOROWITZ, SENIOR FELLOW, HUDSON INSTITUTE

    Mr. Horowitz. Thank you, Mr. Chairman.
    At this hearing there's been much focus, and rightly so, on 
the conduct and evils committed by the Government of China and 
by the Government of North Korea. What I hope to provide and 
what I think is very much called for is further thought on how 
to make those protests, how to make those complaints, more 
effective in ways that reach China.
    My own experience with China, and I think you will confirm 
it, Mr. Chairman, is that it is in many ways the least 
ideological country in the world. It is all an issue of cost 
and gain. There are ways of imposing costs on China for its 
conduct toward these refugees that I think need exploration.
    Let me set out some that I think will be the most 
effective. The first is really to thank you, Mr. Smith and 
colleagues like Congressman Wolf, Congressman Royce, who live 
and die these human rights issues. I wish there were more of 
you in Congress. This is an occasion to lament the death of Tom 
Lantos. I think, had he been alive, Congress would have spoken 
on a bipartisan basis and much more clearly. And former 
colleagues like Tony Hall are as well deeply missed in not 
having made this a much more bipartisan issue than it ought to 
be.
    I do hope in that regard that we can reach Minority Leader 
Nancy Pelosi, because when she was a mere Member of Congress 
her voice was one of the loudest, and clearest, and bravest on 
human rights violations by the Chinese Government.
    If somehow Minority Leader and former Speaker Pelosi can 
regain that voice, I think China will sit up and listen because 
there really will be a bipartisan coalition. So, reaching Nancy 
Pelosi seems to me one way of rescuing these 33 people and 
changing China's policies.
    In the Senate, we need to make up for the loss of Sam 
Brownback and Evan Bayh, who spoke so clearly and on a 
bipartisan basis. And I am hoping that Senator Brown, that 
Senator Rubio, that others join and that we have this kind of 
bipartisan strength that China will recognize and respond to.
    The second, and it has been mentioned, is the Korean-
American community. I have spent the last five years trying to 
engage that community, as the Jewish community was engaged on 
the campaign for Soviet Jewry, as the African-American 
community was engaged on the campaign against the apartheid 
regime.
    I am absolutely convinced that in this Nation of 
immigrants, which always hears the cries of Americans who speak 
of the torture of their brothers and sisters in their home 
countries, that the Korean-American community, unbeknownst to 
itself, has the power to change China's mind and shift American 
policy and create a paradigm shift on China's part and in the 
treatment of these refugees.
    Let me put it this way: Neither the Democratic nor the 
Republican Party would be willing for a second, no matter what 
China's pressures would be, to risk the loss of the votes in 
support of the Korean-American community over the next 25 or 30 
years. The leadership of the Korean-American community must 
make this its signature issue: The murder of their brothers and 
sisters. And we have ways of reaching that community, as Scoop 
Jackson reached a reluctant Jewish community.
    So there's another leadership role for this Commission and 
for you, again, Mr. Chairman. I would have Members of Congress 
call in the leaders, the church leaders in the Korean-American 
community, as Scoop Jackson called in the leaders of the Jewish 
community, and tell them to have a prayer Sunday for North 
Korea at 3,000 Korean-American churches with voter registration 
booths outside the churches.
    That will change things dramatically within the 
administration and China will see that it cannot use the 
business community, it cannot leverage the political community 
because America will listen to an aroused, engaged Korean-
American community, which has not yet happened.
    Third, of course, the administration. And it's been 
mentioned, food aid should be distributed on a needs basis. 
This new deal that was made has got to be made with careful 
attention to the fair distribution of the food on a needs 
basis.
    But the core of it all, and it's a problem of both this 
administration and the prior one, is the lack of a Helsinki 
Strategy approach to dealing with China and North Korea issues.
    A Helsinki Strategy would, as Suzanne and others have said, 
put human rights issues right in the basket of things that are 
negotiated as we talk of all weapons issues with North Korea. 
It has been relegated to a so-called second track. The Chinese 
get it: It doesn't matter.
    Whenever an American official speaks, as the Vice President 
did during the Xi visit, the Chinese understand that that's for 
domestic political consumption and it doesn't really reflect 
the policy of the United States to prioritize issues of human 
rights. Let me say, Ronald Reagan understood all this.
    You know why, Mr. Chairman? Because he had been president 
of a union. I think if we had the AFL-CIO replacing the State 
Department in these negotiations there would be this 
understanding: That raising human rights issues is important 
not only for moral reasons, but it would make us far more 
powerful on the weapons issues, where we offer and sell the 
same product and get the same promises and give money and get 
no response, as will be the case this time.
    And any union negotiator would understand that if the only 
thing on our table is the weapons issue, we are signaling to 
China and to North Korea, ``You've got something we want, how 
much do we have to pay you for it? '' All the leverage goes on 
the other side. Anybody from the Teamster's union would get it 
in a second, Mr. Chairman; and that's what we need, the kind of 
shrewdness in bargaining that I find lacking here and the power 
of a Helsinki Strategy.
    From that follows--and I want to get specific about the 
33--Bob King is a very decent, caring man, who is our Special 
Envoy for North Korean Human Rights, but as I have said, he's 
on the second track. It's so low as not to count, really. And 
the Chinese take Bob King's assignment as the negotiator for 
the 33, I fear, as a signal that they can deport those 33 and 
nothing will happen to U.S.-China relations. We need to get--
and I hope this Commission will ensure this--the Secretary to 
become engaged in the negotiation over the lives of those 33 
and the others. That's the signal that this administration has 
not sent but needs to send.
    And I think Michael Posner, a friend and a good man, needs 
to throw around his weight a little bit more and pound his shoe 
on the table because he's been ignored, as Frank Wolf pointed 
out at the last hearing, over the Xi visit. And I think Michael 
needs to seriously indicate to his colleagues in the State 
Department that he's ready to resign if those 33 are deported. 
I think he has a moral obligation to resign, frankly, if any of 
those 33 are sent to death camps and if this administration 
sends the kind of low-interest, low-priority signal it has 
sent.
    And finally, Mr. Chairman, the United Nations. There is the 
key leverage point. I have set it out in a memo that I 
distributed that I hope will be part of the record, and it was 
also set out in a remarkable letter sent by Senator Brownback 
and Congressman Wolf to former UN Secretary General Kofi Annan: 
All refugees, as everybody has said, are migrants because they 
are persecuted on their return. You don't need to know anything 
else. The United Nations has the right to access those refugees 
the second they cross the Tumen River, and the obligation to 
insist upon it. But as you pointed out, Mr. Chairman, there is 
Article 14 of the China-UNHCR treaty, which is a powerful tool 
that I call on this Commission, and everybody who cares, to 
begin exploiting. That's true of the South Koreans who are 
protesting against China. They ought to be protesting to Ban 
Ki-moon, himself a Korean, because the United Nations has the 
ability to change the whole ball game.
    Let me just state, Section 14 of the treaty says that, 
``Any dispute between the Government of China and the UNHCR, 
arising out of or relating to this agreement, dealing with 
refugees, shall be settled amicably or by negotiation or other 
mode of settlement. But if this fails, such a dispute shall be 
submitted to arbitration at the request of either party.''
    And Suzanne Scholte, for whom I have the most profound 
respect, said that some other country needs to negotiate it. 
That's not even accurate in that regard. The UNHCR can do it. 
Here's the last sentence: ``If, within 30 days of the request 
for arbitration, neither party has appointed an arbitrator''--
and we're talking about China here--``Either party may request 
the president of the International Court of Justice to appoint 
an arbitrator. The arbitral award shall contain a statement of 
the reasons on which it is based and shall be accepted by the 
parties as the final adjudication of this dispute.'' Imagine 
the price China would have to pay if they were getting sued by 
the United Nations.
    And let me say, Mr. Chairman, in conclusion, that the North 
Korea Human Rights Act is explicit. It said that the failure of 
the United Nations to bring that arbitration proceeding 
provided under Article 14 of the treaty was, and I quote, ``An 
abdication by the UNHCR of one its core responsibilities.''
    Now, Mr. Chairman, we finance the United Nations and the 
UNHCR. China doesn't put any money in, we do. It's time we got 
our money's worth. It's time we really protected the lives of 
those 33 and the others, and we have the means to do it. And I 
am hopeful that this Commission, and frankly, members of the 
Appropriations Committee who provide that support for the 
United Nations and for the UNHCR, will call in the High 
Commissioner, will call in Ban Ki-moon, will call their 
colleagues in the South Korean National Assembly, and begin 
putting the heat on the United Nations to stop being passive 
and, frankly, stop appeasing China and begin enforcing their 
treaty obligations and responsibilities.
    Thank you, Mr. Chairman, for permitting me to testify.
    Chairman Smith. Thank you very much, Mr. Horowitz, for your 
testimony, and very valid--and I think very effective--
recommendations as to what all of us should be doing, including 
this Commission.
    I just want to thank all three of you for reminding us that 
whatever the intent was originally for leaving North Korea--as 
Ms. Han pointed out, her husband went across the Tumen River to 
bring back a sack of rice because their family, his family, was 
starving--for that he was imprisoned and killed, and then they 
became marked persons themselves. It is what you are going to 
be forcibly repatriated to that dictates whether or not you're 
a refugee, and I think for some to miss that very obvious point 
needs to be underscored.
    All three of you pointed that out, that whatever the 
original intent, if they go back they're marked people. They 
have a huge target on their backs and they either go to 
execution or to hideous torture that awaits them. So, thank you 
for reminding us of that, all three of you.
    Let me just ask, again, you heard Michael Horowitz talk 
about the importance of focusing on the United Nations, and all 
three of you did make mention of that as well, and the UNHCR. 
But invoking this mechanism that he spoke of, do you find that, 
Mr. Kumar and Mr. Scarlatoiu, to be something that needs to be 
pursued as well? Do you find that a very effective mechanism? 
Mr. Kumar?
    Mr. Kumar. I am not aware of this. I mean, not in depth, 
like Mike is aware. But that mechanism, as he explained, should 
be exploited. The United States can play a role, by the way. 
The UNHCR has to be pressured by the U.S. administration. I am 
sure there are representatives who are there in the UN High 
Commission, and they have a mechanism in their body to exploit 
this. I have never heard of it.
    I even asked Mike before the hearing, is there any 
precedent for this when we discussed this. Otherwise, this will 
become a precedent. That would be a great thing, by the way. So 
I will recommend that the U.S. administration--we should urge 
the United Nations, but you know how the United Nations 
operates.
    They need member countries to exert pressure--the United 
States, along with other countries, South Korea as well--and 
put some pressure on the UNHCR to exploit this mechanism to see 
whether that's something achievable. If that can be achieved, 
that would be a ground-breaking avenue to protect North Korean 
refugees, as well as other refugees who may be in the same 
plight.
    Mr. Scarlatoiu. Chairman Smith, in the fourth 
recommendation that I respectfully brought to your attention 
today we suggest that we should give priority to raising the 
forced repatriation of North Koreans with Chinese officials, 
but also absent a response we should bring the issue before 
international refugee and human rights fora.
    Certainly UNHCR's Executive Committee, the UN Human Rights 
Council, as well as the General Assembly of the United Nations, 
should all be expected to call on China by name to carry out 
its obligations under refugee and human rights law and enact 
legislation to codify these obligations so that North Koreans 
will not be expelled if their lives or freedom are in danger.
    I have also mentioned the need for a multi-lateral approach 
to the issue of North Koreans leaving the country. Their exodus 
affects more than just China, it concerns South Korea--the 
Republic of Korea, most notably, whose constitution offers 
citizenship to North Koreans; countries in east and southeast 
Asia, eastern and western Europe, as well as Mongolia and the 
United States, are also affected.
    A multi-lateral approach should be designed, an approach 
that finds solutions for North Koreans based on principles of 
non-refoulement and human rights and humanitarian protection.
    Chairman Smith. Thank you.
    Mr. Horowitz?
    Mr. Horowitz. I have spoken with the High Commissioner for 
Refugees. It just boggles my mind, Mr. Chairman. He talks about 
the pressure from the Chinese. He doesn't talk about pressure 
from the United States, which pays his electric bills. It is 
time now to put the heat on the United Nations and, frankly, 
with the Secretary General himself being Korean and a former 
Foreign Minister of Korea, we've got the leverage to apply.
    Our complaining, even if the State Department were as 
committed as I hope they would be, won't move China as much as 
the notion that they were isolated and the United Nations and 
the UNHCR were suing them for what everybody acknowledges, 
including the United Nations, is a clear violation of all of 
the applicable treaties. So I think the time has come to put 
the heat on and put the focus on the United Nations, and that 
would be true even if there wasn't an arbitration proceeding in 
the China UNHCR treaty.
    Chairman Smith. To the best of your knowledge have the 
picketers and the protesters who rightfully have focused on 
North Korea and certainly on China, but to the best of my 
knowledge they have not focused on the leverage that the United 
States could bring, and I don't think they have sufficiently 
focused on the leverage they could bring to bear on the United 
Nations itself.
    Mr. Horowitz. Exactly. I think that we need to focus on the 
United States. As I've said, we need to focus on moving the 
negotiations from the level--good as he is--of Bob King to the 
level of the Secretary. I think we need to make Michael Posner 
understand that his tenure and the respect he earns will be 
contingent on the United States elevating, by orders of 
magnitude, the priority of this negotiation.
    But I think most of all we need to put the onus on the 
United Nations, whose treaties are being violated and whose 
response has been literally non-existent. That must change and 
the United States has the leverage to make it happen, I 
believe.
    Chairman Smith. You know, we've called this hearing as an 
emergency hearing precisely because, for those individuals 
affected--maybe it's 33, it might be a few more, nobody knows 
for sure--their lives are in imminent danger of persecution or 
execution. It seems to me that with the focus--and I do thank 
the media for being here, for amplifying the concern and the 
message of all of our very distinguished witnesses.
    But from hearing from Ms. Jo and Ms. Han earlier, we heard 
from people who lived, are survivors, and shame on us, frankly, 
in the Congress, shame on us in the United States and at the 
United Nations, and every other body that cares about human 
rights and the rule of law if we don't make this the case. This 
is the case. I think the three of you have very eloquently 
underscored why this is the time to act. I deeply appreciate 
your testimonies because they couldn't come in a more timely 
fashion.
    So I would like to just ask you if there's anything else 
either of you would like to add to the record before we 
conclude this hearing.
    Also, Roberta Cohen, who you, Mr. Scarlatoiu, spoke 
somewhat from her testimony, that her full statement be also 
made a part of the record.
    So if there's anything you'd like to add, to our 
distinguished witnesses. Yes, Greg?
    [The written statement of Ms. Cohen appears in the 
appendix.]
    Mr. Scarlatoiu. Congressman Smith, thank you very much for 
continuing to pay attention to this very important set of 
issues. Our two main challenges as North Korean human rights 
experts and advocates are that North Korean issues are 
extraordinarily important, but they always compete with other 
extraordinarily important issues.
    Even when we pay attention to North Korea's military 
provocations, missile launches, sinking of South Korean ships, 
it is very difficult to keep North Korean human rights at the 
top of the agenda. So, once again, thank you so much for your 
efforts.
    Additionally, I would like to conclude by reminding 
everyone, this point has been made here today, that we the 
people of the United States of America pay for one-third of 
UNHCR's budget, and thus we should have tremendous leverage 
when it comes to this issue of the North Korean refugees in 
China.
    Chairman Smith. Excellent point.
    Mr. Scarlatoiu. Thank you, sir.
    Chairman Smith. Mr. Kumar?
    Mr. Kumar. Thank you, Chairman. I would recommend focusing 
on what Mike mentioned about the specific UN mechanism in 
place, which, as I understand, there is no precedent. So, it is 
better to explore that. I wonder whether the Commission, or any 
other committee, can explore it as a study to see whether there 
is something there. Then if that's agreeable, then it can start 
moving in that direction. Thank you.
    Chairman Smith. Mr. Horowitz?
    Mr. Horowitz. Mr. Chairman, I am about to flatter you, and 
I think you know me well enough to know that I am not doing it 
for any other reason but that I so deeply believe it. But I 
will say that in Japan there is this tradition of declaring 
living human beings as national treasures. I put you in that 
category for your persistence on human rights issues and I 
cannot thank you enough.
    I want to say just one other thing. Again, I want to get 
back to the Reagan point. When Ronald Reagan dealt with the 
former Soviet Union, there are these stories of how the Russian 
Ambassador came to the American Secretary of State and said, 
``You know, I want to talk to the President about missiles and 
all these real issues. Every time I come into his office, all 
he wants to talk about are Pentecostals and Jewish refuseniks. 
Is he really serious? What's going on here? ''
    Secretary Schultz said, ``Listen, I've got the same 
problem. That's what he talks about. If you want to deal with 
the United States you're going to have to come to term on these 
human rights issues.'' Reagan cared. But as I said, he was also 
a union negotiator and he understood that that was the means of 
putting the other side on the defensive. He didn't brag about 
success, but it's that sense of priority.
    So I want it understood, Mr. Chairman, that your passion 
for human rights is not ``merely'' because you care about 
vulnerable human beings; it is a shrewd, strategic means of 
getting better deals on the weapons side. Because once we start 
raising those issues, they'll do anything to keep the issues 
off the table. That's where they're vulnerable.
    If we can have, not just voices in the wilderness, but this 
being the real priority interest of the United States in terms 
of policies, as Ronald Reagan dealt with the Soviet Union or 
Scoop Jackson understood, I think we will get better deals on 
weapons. I think we will begin to have a means of peacefully 
imploding the regime in North Korea, of sending a signal to 
China that keeping this regime in business costs them more than 
it gets them.
    And I will say one last thing about China. Every leader 
there lived through the Cultural Revolution. In personal terms, 
they understand the evils of North Korea better than anybody 
else does because they lived through it. Only, what they 
understand further is that this has gone on for 65 years, not 
for a couple of years.
    The only problem is we haven't made them pay a price for 
that. Once we begin escalating that price, as Reagan understood 
in dealing with the Soviet Union, I think they will find it 
counterproductive in terms of their national interests to 
continue supporting this regime. So, keep it up, Mr. Chairman, 
and we will have peaceful change in North Korea. Thank you.
    Mr. Kumar. Congressman, I have just one last thing.
    Chairman Smith. Yes, Mr. Kumar?
    Mr. Kumar. Is it possible for the Commission to urge the 
U.S. Ambassador to China, Ambassador Locke, to visit this body 
and submit a report about the plight of North Korean refugees? 
That will add pressure on China and also get an official line 
from the U.S. administration on what they think and what should 
be done.
    Thank you.
    Chairman Smith. A very good point, Mr. Kumar. We will 
explore that and ask him if he will do that. All of you have 
made extraordinary contributions to what we ought to be doing, 
next steps, as well as an understanding of where we are now. I 
would agree with you fully, Mr. Horowitz. I broke my eye teeth 
on human rights on the Soviet Jewry issue. My first trip was to 
Moscow and Leningrad in 1982, the second year of my first term, 
and I learned very quickly every since then that when human 
rights are subordinated, put on the back bench, that all the 
other issues, whether it be intellectual property rights or 
trade agreements of any kind, and especially arms control, they 
all are weaker, or they are ineffective in terms of 
implementation.
    Get the human rights piece right and all the others follow, 
not the other way around. Unfortunately, the genius of the 
North Korean Human Rights Act was to mainstay and mainstream 
the human rights issues in North Korea, as we ought to be doing 
everywhere else, and its implementation has been far less, both 
under Bush as well as under Obama. That needs to be corrected. 
All of you have made very eloquent statements and we will act 
upon them.
    This hearing is adjourned.
    [Whereupon, at 4:27 p.m. the hearing was adjourned.]


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                 Prepared Statement of Suzanne Scholte

                             march 5, 2012

    Senator Sherrod Brown and Congressman Chris Smith and Members of 
the Commission, thank you for so quickly responding to the urgent 
crisis facing North Korean refugees recently arrested in China.
    Congressman Smith, you will remember that in September you hosted a 
hearing with a North Korean defector, Kim Hye Sook, the longest serving 
survivor of the North Korean political prison camps. She spent twenty 
eight years in a political prison camp. I mention her today because the 
reason she was jailed at the age of 13 with her entire family in 
Bukchang political prison camp, where her brother and sister are still 
imprisoned, was simply because her grandfather allegedly had escaped to 
South Korea. She is a living example of how the regime retaliates 
against three generations of a family if just one family member flees 
North Korea.
    As draconian as these measures have been, the current situation is 
even more critical for the North Korean defectors recently arrested in 
China, most face execution because of three factors. First, the Kim 
Jung Un regime announced in December that the entire family and 
relatives should be annihilated if any family member fled during the 
100 day mourning period following Kim Jong Il's death.
    Second, among the group of over thirty that were arrested in 
February are defectors who have family members who have successfully 
defected to South Korea. In fact, the parents of a 19 year old girl 
arrested in China have pleaded that their daughter be allowed to commit 
suicide rather than be repatriated to North Korea. There is also a 71 
year old mother, who has a daughter in South Korea, and a mother and 
her 20 day old baby, as well as a 16 year old boy whose brother is in 
South Korea. In many cases, these refugees are trying desperately to be 
reunited with each other as they are the only survivors of families 
destroyed by starvation and persecution.
    Third, China is providing information to North Korea about the 
intentions of the refugees it has arrested informing the North Korean 
security agents if these refugees were trying to flee to South Korea. 
Because of this collusion, the Chinese government is complicit in pre-
meditated murder because it knows that those refugees, when repatriated 
to North Korea, face execution.
    By refusing to honor its international treaty commitments and 
colluding with North Korea to repatriate these refugees, China has 
created a violent and lawless situation where eighty percent of North 
Korean females are subjected to human trafficking and North Korean 
agents are allowed to freely roam around China assassinating 
humanitarian workers and hunting down refugees.
    Imagine this for a moment: the Chinese government, which wants to 
be seen as a responsible international leader, refuses to allow the 
United Nations High Commissioner for Refugees, whose sole purpose is to 
help nations address refugee problems, access to these refugees but has 
no problem allowing North Korean spies and assassins free reign.
    This collusion between North Korea and China proves most definitely 
that China cannot hide behind its claim that these refugees are 
economic migrants, and not subjected to the international treaties 
China has signed.
    China knows full well--and has known for decades--that when they 
force these North Koreans back to North Korea they face certain 
torture, certain imprisonment and increasingly execution for fleeing 
their homeland.
    According to Kim Seong Min of Free North Korea Radio, which has 
informants in both North Korea's and China's security operations, China 
began separating North Korean defectors into two groups based on 
whether they were trying to escape to South Korea starting in at least 
2008. We suspect this was part of the crack down before the Beijing 
Olympics and the enormous fear China had about the world coming to know 
about their cruel treatment of North Korean refugees.
    Ju Seong-ha, a reporter for Donga-Ilbo and Kim Yong-hwa, the 
Representative of North Korean Defectors' Protection Association, both 
defectors themselves, have described how China uses a different color 
stamp on the interrogation papers for those defectors who were 
attempting to get to South Korea.
    China is literally marking these refugees for death before they are 
repatriated.
    We are at a critical point in this fight for the lives of the North 
Korean refugees and urgent action and attention is needed. If we do not 
convince China to reverse its repatriation policy and work with the 
international community on this issue, the refugees in China's custody 
face death.
    In closing, I want to cite a number of arguments that should be 
used to convince China that it is in their best interest to follow 
their international treaty obligations and work with the international 
community. In fact, China is not only causing this refugee crisis, but 
prolonging it.
    First, China fears an increasing flow of refugees if it allows 
refugees safe passage to South Korea, but China's actions are ensuring 
that there will always be refugees by relieving Kim Jong Un of taking 
any measures that would improve conditions in North Korea. The fact is 
that North Koreans are fleeing North Korea out of desperation. They 
know the considerable risk they are taking to flee to China but they 
keep risking their lives to pursue this action out of desperation. 
Furthermore, most North Koreans who have resettled in South Korea and 
other nations want to go back to North Korea once conditions improve in 
their homeland. China has desired that the Kim regime adopt China-style 
reforms but by forcefully sending fleeing North Koreans back to North 
Korea, China relieves any pressure for Kim to improve conditions in 
North Korea so the citizens do not want to flee.
    Second, China's future will be much brighter for its people if its 
government works with South Korea rather than kowtows to the dictator 
in North Korea. The two countries celebrate the twentieth anniversary 
of their diplomatic ties this year and enjoy a robust trade 
relationship. South Korean culture is very popular in China, and many 
Chinese tourists travel to South Korea. Working with South Korea on 
this issue will have a positive benefit to their future relationship 
because it is inevitable that Korea one day will be reunified. With the 
increasing amount of information flowing into North Korea and more and 
more North Koreans becoming aware of the truth, brutal dictatorship of 
Kim Jong-Un is doomed to end.
    Third, all the remedies for resolving this issue are immediately at 
hand to ensure no burden on China including a UN sanctioned agency with 
an office in Beijing, the UNHCR; a humanitarian network and a strong 
commitment from South Korea and the United States to help resettle 
refugees.
    Finally, China needs to be reminded of what this regime really 
thinks of the Chinese people. Kim Jong il had a long established policy 
known as ``Block the yellow wind''--as he was resistant to adopting any 
China style reforms. His racist contempt for the Chinese people was 
evident in his ordering of his border guards to beat the bellies of 
pregnant North Korean females who had been repatriated because their 
unborn babies were half Chinese.
    Now, that more and more people around the world are becoming aware 
of the North Korean refugee crisis and calling upon China not to force 
these refugees back to North Korea, this is a perfect opportunity for 
China to show great leadership and work with the international 
community, rather than kowtowing to a brutal dictatorship, frequently 
cited as one of the world's worst regimes.
    I want to close by recognizing one of your colleagues, 
Assemblywoman Park Sun Young of the Korean National Assembly, who began 
a hunger strike on February 21 across the street from the Chinese 
Embassy in Seoul calling for China not to repatriate these refugees and 
vowing to continue her vigil until death unless the North Korean 
refugees are allowed safe passage to Seoul. This brave woman collapsed 
on Friday and was rushed to the hospital. She understands the 
consequences for these refugees, and we hope that parliamentarians as 
well as governments around the world will join her in calling upon 
China to end their brutal repatriation policy and stop sending North 
Koreans to their death.

                     SUBMITTED WITH THIS TESTIMONY

    (1) Letter to Hu Jintao by North Korean defector and reporter 
Seongha Ju, The Donga Daily
    (2) ``Kkot Dong San'' A Hill Filled with Flowers, an essay about 
the reeducation camp where tens of thousands were sent and died 
following repatriation from China
    (3) Red stamps for those escaping to South Korea for freedom? The 
behind-the-scene deal between China and North Korea

* * *

 Letter to Hu Jintao by North Korean defector and reporter Seongha Ju, 
                            The Donga Daily

  [translation of letter published in donga ilbo on february 14, 2012]
    Dear President Hu Jintao,

     The heartrending cry of the family of North Korean refugees 
arrested in China last week, encouraged me to write to you through this 
newspaper. Now you are the only person that can save their life.
     I am also a refugee from North Korea that fled via China to South 
Korea through severe hardships. Feeling, with every fiber of my body 
and soul, the fear and agony of the refugees facing impending 
repatriation to North Korea, I am desperately writing this letter word 
by word, hoping this will be the last lifeline to which the arrested 
can resort.
     China has, to date, repatriated arrested North Korean refugees to 
Pyongyang, and will also do the same this time.
     Mr. President, however, please be noted that Pyongyang's 
punishment of the refugees has grown unprecedently and incomparably 
severe. Of recent, Pyongyang deems defection as the most serious menace 
to their regime, taking the most hawkish approach including on-the-spot 
execution of the refugees on the border.
     The punishment has got even harsher since Kim Jong-Il's death, and 
Pyongyang reportedly even issued an instruction to annihilate the 
entire family and relatives of the refugees that defected during 100 
days' mourning period. Under such atmosphere, it is as clear as 
daylight that the refugees will be subject to an exemplary execution or 
imprisonment in the concentration camp for political prisoners, 
immediately after being taken to North Korea.
     China has been strengthening coordination with North Korea to 
prevent defection in various areas including putting barbed-wire fence 
on the border, tracking down refugees, patrolling the border, detecting 
the radio wave, etc.
     China's concern about Pyongyang regime's stability, is not 
incomprehensible. No matter how it may be, however, by when will you 
assume the villain role to drive refugees to death? By when will you 
support the regime that cannot control its people without public 
execution and deadly concentration camps?
     Throughout the last decade, tens of thousands of refugees were 
taken back from China to North Korea, many among whom have passed away 
from harsh punishment and famine. China also stands liable to their 
death. When will you realize the fact that China is losing North 
Koreans' public trust whenever you fell the refugees off the cliff of 
the death one by one?
     Many of the arrested have their family in South Korea. Most of 
them are sons, daughters, parents and siblings of South Koreans. Among 
them is a teenager who has a brother and a sister in South but no other 
family in North. The brother and the sister are shivering like wounded 
deer in the corner of a room, off all food and drink, at the news that 
their younger brother, who they were to bring to South with the money 
they scraped up with hard shores at the cafeteria.
     Parents of an arrested girl, crying bitterly in front of the South 
Korea's Ministry of Foreign Affairs and Trade, pleaded to send poison 
to their daughter if her rescue is impossible. They want her to commit 
suicide in China rather than to be killed by cruel punishment in North 
Korea. Other family's feeling is just alike.
     Their repatriation to Pyongyang will leave dozens of their family 
in South Korea in lifelong agony, nightmare and sense of guilt. There 
are tens of thousands of separated families in two Koreas already 
living like that. How can I describe their pain in mere writing?
     Mr. President, this year we have the 20th anniversary of the 
establishment of diplomatic relations between China and South Korea. 
Every Korean and the whole world are keeping keen eyes on you. Please 
allow them to meet their family again with joy. I desperately ask your 
generosity. Please let us all applaud you with deep appreciation.

            Sincerely Yours,
            Seongha Ju, Reporter of The Donga Daily

* * *

    ``Kkot Dong San'' A Hill Filled with Flowers, an essay about the 
 reeducation camp where tens of thousands were sent and died following 
                        repatriation from China

           [http://blog.donga.com/nambukstory/archives/23738]

    Sung Ha Joo 2/14/2012 8:00AM
    There is a certain ``Kkot-Dong-San.''
    It is a hill by a reeducation camp in Jungsan-kun, Pyong-Nam in 
North Korea. The reeducation camp is an imitation of the Soviet Union's 
forced labor camps in the past. Those who are sentenced to several 
years due to attempts at escaping must farm under the influence of 
hunger and ruthless whipping that one can hardly imagine.
    If the people in these camps die from hunger or beating, they are 
buried in the Kkot-Dong-San. Tens of thousands of corpses are buried 
there. Several corpses are buried in a single hole, and when it's full, 
other corpses were buried over these graves. In the winter when the 
earth is frozen, the burial process becomes merely a covering process. 
The corpses are wrapped in a plastic wrap, and a penicillin bottle with 
the name and birthday is hung around each corpse's neck.
    The human skull protruding from the ground as well as pieces of 
cloth and vinyl paper flapping with wind reminds one looking from afar 
of a flower field, which is why the reeducation camp prisoners call the 
hill ``Kkot-Dong-San.'' It also reflects the prisoners' desperate wish 
to get away from hell at least in their deathbed.
    Though often political prisoner camps are considered the epitome of 
North Korea's human rights violations, the reeducation camps are 
actually worse. Political prisoners are slaves for life. Slaves are 
assets. If they only work under the influence of whipping, they become 
very good workers. Products made from political prisoner camps are 
considered to have the best quality of all products in North Korea.
    On the other hand, when they are released from the prisoner camps 
and enter reeducation camps, they are merely ``human trash'' to the 
North Korean elites. They would prefer seeing these prisoners die from 
persecution.
    A woman who was arrested and taken to Jungsan reeducation camp in 
2000 said that among 2000 people with whom she first entered the camp, 
only 200 people were still living after 7 months. It is the same with 
other reeducation camps. North Korean defectors who were in charge of 
disposing corpses in 1998 for six months said that they disposed of 859 
corpses in total.
    The majority will die due to malnutrition. In a reeducation camp, 
other living things such as rats and insects are on the verge of 
extinction because the prisoners put whatever they see alive into their 
mouths.
    In reeducation camps, the day that one will finally die is 
estimated by a fist. If a fist can go in between your crack vertically, 
you are on your way to dying, if a fist can go in horizontally, you are 
dying, and if a fist can go in in both ways, you will not survive.
    Just like that, I know so well what it is to be dying. I had also 
failed escaping and been classified as a political prisoner. As a 
result, I frequented the security department's torture chambers, 
prisons, and labor camps. Only when I was on the verge of death, 
weighing only 90 lbs, was I released.
    After I came to South Korea, I have been writing about North Korea 
for 10 years. Many times I cried because I had experienced the same 
pain that other North Koreans are experiencing. To me, North Korea is 
pain and tears. I cannot step away from my keyboard if I think about my 
fellow North Koreans who are suffering and dying.
    I received a list of North Korean refugees recently arrested in 
China. O, how painful. . .
    Kim Jung Un declared that anyone defecting after Kim Jung Il died 
will have his or her family killed down to three generations. China 
does not feel guilty at all even after pushing the North Korean 
refugees close to death. The picture of ``Kkot-Dong-San'' where crows 
linger above the sad faces of those being sent back to North Korea is 
vivid in my mind.
    I plead to you not just as a reporter, but also as a person who has 
experienced what a Hell is. If you happen to see an idol worship or 
group gymnastics performance and waves of other flowers in Pyongyang, 
please remember the labor reeducation camp ``Kkotdongsan.'' Please 
don't forget the nameless dead who are being wrapped and buried in 
``Kkoddongsan.''
    Even if it's only once in a while. . . Please . . ..

* * *

 Red Stamps for Those Escaping to South Korea for Freedom? The Behind-
              the-Scene Deal Between China and North Korea

           [http://blog.donga.com/nambukstory/archives/24333]

    2012/02/22 8:00 am Sungha Joo
    It is discovered that in the process of deporting the North Korean 
refugees back to North Korea, the Chinese government has been informing 
to the North Korean government whether the captured refugees had 
escaped North Korea to head to South Korea or not.
    There is a high possibility that the North Korean refugees who 
intended to escape to South Korea will either be detained in a 
political prisoners camp or be executed after they are deported. It was 
the North Korean government that told the Chinese government to 
determine the refugees' intended destinations.
    The Tumen Public Security Bureau in China announced on the 21st 
that the Chinese Public Security Bureau has been receiving natural 
resources such as logs and minerals from North Korea in return for 
deportation of the refugees back to North Korea.
    They (Tumen Public Security Bureau) said that ``Recently China has 
been informing North Korea about the refugees intending to head to 
South Korea by using different colors of stamp on the files''.
    China has been using different colors of stamp that they agreed 
upon with North Korea each month, for example red in January and blue 
in February, instead of writing down ``to South Korea'', in order to 
avoid leaving obvious evidence that they have been assisting North 
Korea.
    It is reported that due to the enlarging issue about refugees 
beyond the nation, China came up with this idea of using different 
colors of stamp to inform North Korea if the refugees were heading to 
South Korea.
    When China had a good relationship with North Korea, they even 
handed over all the interrogation files to North Korea and moreover, 
during the late 1990's, it is witnessed that a North Korean 
investigator, disguised as a Chinese investigator, came over to China 
and interrogated the refugees.
    The former North Korean lieutenant and the director of a North 
Korean broadcasting station, Sungmin Kim, said on the 21st that when he 
was being interrogated, ``I was criticizing the political system of 
North Korea to a Chinese investigator who seemed to be compassionate 
and understanding, but later when I was being deported back to North 
Korea, the same man welcomed me back not as a Chinese investigator but 
as a North Korean personnel agent''.
    If China does not inform North Korea about the refugees' intent to 
escape to South Korea, the refugees will have a better chance in living 
even after they get deported. Since it is difficult for the North 
Korean refugee investigators to go over to China to investigate, the 
refugees only need to deny that they were intending on fleeing to South 
Korea and endure the tortures but could still spare their lives.
    However, it is relatively easy to find out about the destinations 
of the refugees in China because the refugees hoping to head to South 
Korea are taken under custody along with the people who help them to 
their freedom.
    It is reported that the Chinese government has been assisting in 
capturing the refugees and handpicked those who are to be executed and 
in return, they received logs and minerals from North Korea.
    The bitter refugees witnessed that the compensations for the 
refugees change from time to time, but usually they consist of logs 
from Mt. Baekdu and iron ore from Musan mine. The exchange of the 
refugees and the natural resources started since 1998 and has continued 
until now like a tradition.
    China sends back arrested North Korean refugees mainly through 
Tumen (located on the opposite side of Du-Man River in On-Sung, North 
Hamkyung Province) and Dandong (located on the opposite side of Ap-Nok 
River in Shin-ee, North Pyong-An Province). They also use any other 
bridges that connect China and North Korea.
    Even at just Tumen, more than 3,000 refugees have been deported 
back to North Korea within a year. From this, it is estimated that more 
than 5,000 refugees are deported back to North Korea every year.
    The Chinese government detains the refugees at the Tumen prisoner 
camp and when the camp fills up, they transport the refugees back to 
North Korea once or twice a week by buses. In the past, they used 
military trucks for the transportation, but since a lot of the refugees 
took their own lives by throwing themselves out the truck into the 
river at the bordering bridges, they changed trucks to buses.
    Typically, refugees who are captured around Tumen like Yanji are 
deported back within two weeks, but if the refugees are captured 
somewhere farther away, the investigation takes longer. Tumen prisoner 
camp is meant for foreign criminals, but there are only refugees there 
now.
    In this camp, North Korean refugees are repeatedly beaten and 
sexually harassed while they are stricken with fear before 
repatriation. North Korean refugees who have already experienced this 
prisoner camp said that at times, on the pretense of delaying 
repatriation, the camp officials rape the prisoners.
                                 ______
                                 

                   Prepared Statement of Songhwa Han

                             march 5, 2012

    Hello, my name is Song Hwa Han and I came to the United States with 
my two daughters in 2008 as refugees, following the passage of the 
North Korean Human Rights Act in the United States Congress in 2004. 
The lowest class of people in North Korea have a most desperate and 
earnest plea. That plea is to be freed and liberated to freedom of 
human rights from the worst suffering and pain of starvation. I want to 
thank God and the United States Government for hearing our plea for 
hope and giving us freedom. I want to just describe very briefly my 
reasons for leaving North Korea.
    I escaped with my two daughters from North Korea for the first time 
in 1998. Before defection from North Korea, my family consisted of 
eight people. My mother and my two month old new-born baby son died 
from starvation. My oldest daughter, who was 18 years old at that time, 
left home to find food, and never came back; to this day I do not know 
of her whereabouts, or what happened to her. I had another five year 
old son, who I had to leave at an acquaintance's home before I escaped 
to China. I promised my son, ``If you just sleep for five nights, I 
will be back with rice and candy, and I will come back to get you.'' 
Afterwards, my five year old son, who was suffering from malnutrition, 
was kicked out of the house I had put him in, and died while waiting 
and crying out, `Mommy, sister! When are you coming back . . . '' He 
cried and cried and died in a grass field; this news was delivered to 
me by someone I had hired to go and bring my son to China.
    My husband was arrested and sent to jail for the crime of crossing 
the Tumen River and going to China and bringing back a sack of rice, 
when what he had done was simply to go to China to find food for his 
children and save them, who had slowly over time grown weaker and 
weaker from starvation. He died while incarcerated in prison, from the 
severe punishment he received. Afterwards, my family was labeled as 
`anti-state' traitors, for having crossed over to China, and the North 
Korean police and the ``bowibu'' (National Security Agency) agents came 
to look for us in our countryside village home. They came to kick us 
out of the village, for me to take the remaining family members and 
move away to another place. Our family had devoted ourselves to the 
Party and to the Dear Leader, but contrary to the police in the United 
States, instead of protecting the citizens, the North Korean police 
threatened to burn down our house if we did not move out. I could no 
longer beg for help or for mercy. I decided right then and there. 
Rather than staying put and starving to death, even if we die trying to 
go find our way to freedom, I decided to seek out freedom! My one sole 
wish was to feed my children just one meal of while rice, and decided 
that I would never suffer from starvation or be unfairly mistreated and 
therefore took my seven year old daughter who was malnourished and was 
not growing up properly, put her in a sack and carried her, and held my 
older daughter's hand and leaned on one another and crossed the waist-
high currents of the Tumen River and safely escaped from North Korea.
    After escaping to China and living in fear for almost ten years, 
during that period we were forcibly repatriated four times. During one 
of those forced repatriations, I would just like to share about my 
experience from the time I was forcibly repatriated during the summer 
of 2003.
    First of all, once a North Korean defector was handed over by the 
Chinese police to the North Korean ``bowibu'', one had to become an 
animal, and secondly, the defectors who are repatriated are ordered by 
the North Korea guards that ``You are all dogs from now on, so 
therefore lower your head and move around by only looking at the 
ground.'' The prisoners are handcuffed and chained to one another, and 
if the slightest noise is made, the prisoners are beaten with rifle 
butts. After the interrogation is finished at the ``bowibu'', the 
prisoners are taken to a reform labor camp. Where I was sent, we were 
forced to work from 5 in the morning until late at night, and after 
dragging our dead-tired bodies back from work we were given only a 
fist-size corn-riceball to eat, and until 11pm in the evening we were 
required to participate in self-reflection and self-criticism group 
meetings. We would then spend the rest of the night sitting in front of 
one another and picking off the ticks and lice from our clothes and our 
hair, and then sleep for a few hours, and then wake up early in the 
morning to the wakeup call and then get dragged out for more labor.
    These punishments are repeated for as long as six months, and like 
my husband who died from malnutrition and starvation and the women 
prisoners who collapsed from fatigue and could not get up again, women 
and men alike had to carry heavy logs up to the mountainside and if a 
prisoner became injured there was no recourse for medicine or medical 
care. In the wintertime, there were no proper footwear, so pieces of 
cloth and strings would be used to cover up the feet and while working 
in the snow many would come down with frostbite, but we could not stop 
work and had to continue working, and also continue to work the 
following day. Sometimes the men had to shovel human waste with their 
own bare hands. The women prisoners would then carry the human waste 
mixed with dirt on their back and carry the load onto the fields. So 
for the crime of going to China for only wanting to live and not die 
from starvation, North Korean refugees who are repatriated by China 
become prisoners and end up suffering under crushing labor doing 
construction work or coal mining work, and become sick or injured, or 
worse, suffer in misery and pain and die while working under horrendous 
conditions; the wretched and poor North Korean refugees continue to 
suffer like this and the misery is never-ending.
    For the crime of betraying the nation, in the ``bowibu'' prisons 
the North Korean refugee men who were forcibly repatriated were beaten 
with steel pipes, and countless people died from the beatings inflicted 
on them where arms and legs were broken. I myself was beaten in the 
head for the crime of having gone over to China, and I was beaten so 
severely that my skull still has pieces of bone embedded in my head. 
Besides this injury, because I was beaten so severely and punched 
around so much my eyes became swollen, and one of my ear drums 
ruptured, and to his day, I am hard of hearing in one ear. While we 
were suffering from thirst there was no water to drink, and the 
prisoners would end up drinking foul water from water tanks or wells, 
and contract dysentery and die without any care or treatment given to 
them.
    North Korean refugees, if they are miraculously able to survive and 
released from prison or from the reform labor camps, will attempt to 
escape from North Korea even if it means death if caught again. Through 
this Hearing today I earnestly plead and beg of you. Refugees of other 
countries have been accepted in the U.S. numbering in the tens of 
thousands of people, but after the North Korean Human Rights Act passed 
in 2004, only about 130 North Korean refugees have been granted asylum 
in the United States.
    These defectors, who have been separated from their parents, 
separated from their children--these defectors who have no place to 
go--these North Korean refugees who are shuddering in fear in China 
right now, are desiring freedom in the free world, whether it be South 
Korea or the United States, and desire to be rescued and accepted into 
freedom. Please help us North Korean refugees.
    Thank you.
                                 ______
                                 

                    Prepared Statement of Jinhye Jo

                             march 5, 2012

    Hello my name is Jinhye Jo and I am a North Korean defector.
    I want to first extend my greeting of deep appreciation to God, the 
United States Government, and the American people for allowing me the 
freedom to speak before you at this place, and also for the fact that I 
am living in America, a place which is like heaven to me. In North 
Korea one could not dream of going to Pyongyang freely unless you were 
a part of the inner circle of Kim Jong Il. However I am now living in 
the Washington, D.C. area, the capital of the United States, and I am 
here today to make an earnest request.
    With a desire to fill our hungry stomachs, we escaped to China to 
seek the freedom that my mother spoke of. However, what awaited us were 
the Chinese police and security officials who were obsessed with 
searching for and arresting North Korean defectors, and human 
traffickers who did not see a mother of two children but rather a 
source of money-making. My sister and I were young and naive and were 
just so glad to be able to eat white rice, but we always lived in fear 
that one morning when we woke up our mother would be taken somewhere to 
be sold, or that she would abandon us and leave us. By chance I 
happened to find God and became a Christian at a small countryside 
church, and through the grace of God and his protection, even though I 
was forcibly repatriated four times to North Korea, I did not die from 
beatings, I did not die from starvation, and I was able to survive and 
live.
    The North Korean ``bowibu'', or National Security Agency officials, 
strip search the defector women who are sent back, searching every 
article of clothing to look for hidden money. If nothing of value is 
found among the clothing, the prisoners who are standing are told to 
put their hands on their head and forced to sit and stand up repeatedly 
until they collapse from exhaustion, and if they do collapse, they are 
relentlessly slapped. An elderly grandmother who was 65 years old and 
next to me in the interrogation cell said she could not move any 
further, and she was immediately and mercilessly slapped and beaten, 
while another young girl and I had our heads bashed against the wall 
repeatedly. After the interrogation was over and while in transit to 
the prison cells, one of the prisoners had talked back to the security 
guard and we were then mercilessly kicked by the guard, who was wearing 
boots. We were placed in cells that were crawling with insects, and 
while trying to sleep at night, because the space was so limited, we 
literally had to sleep on top of other prisoners.
    As a woman it is hard for me to describe what I saw and 
experienced, but I want to speak out today with courage for the 
countless North Korean refugees who have suffered under North Korea's 
evil and its violation of human rights. North Korean refugees swallow 
money wrapped in plastic when escaping to China. During arrest by the 
Chinese authorities and forced repatriation to North Korea and going to 
a prison, the money that is expelled naturally through defecation is 
peeled of its soiled plastic and swallowed again. Another way of hiding 
money for women is to hide the money in the womb or, in the anus. There 
was an incident at the ``bowibu'' facility in Sinuiju, North Korea 
where a 16 year old girl's hymen ruptured and she was hemorrhaging 
blood. The ``bowibu'' agent used a rubber glove to check for money or 
contraband in her vagina and due to the reckless searching the agent 
had ruptured her hymen. In their quest to search for money and rob the 
prisoners, they stopped at nothing, using all kinds of methods and 
means to do so. A lot of the women prisoners also attempted to give the 
money they took pains to hide to the security agents with the hope of 
being shown leniency or being let go.
    I remember vividly what happened to a North Korean refugee woman 
who was pregnant with a baby conceived with a Chinese man, who was 
repatriated. The head ``bowibu'' security agent cussed profanities at 
her, yelling at this woman that she was a ``bitch who carried Chinese 
seed''. He then proceeded to torture and beat her with steel hooks by 
hitting her on the side and the head, and forcing her to sit and stand 
repeated for five hundred times, until she collapsed. The North Korean 
agents continue to pour out obscenities at the woman lying on the 
floor, and after they picked her up and sat her down on the floor, the 
agents then beat her in the head with a wooden block and caused her 
nose to bleed, and her blood splattered all around her in the 
interrogation room. I saw this with my own eyes. Besides this one 
example, there were situations where we were bitten by bugs and we 
suffered from inflammation; when the temperature got so cold and some 
prisoners were crying out in pain from frostbitten feet, the security 
guards would punish everyone in the cell.
    When my family was repatriated for the last time, my mother was 
hauled to be tortured. Hearing our mother's blood-curdling screams, my 
sister and I froze instantly with fear, as if our hearts stopped. The 
head ``bowibu'' agent began to torment and scare us by saying that if 
we told the truth, our mother would not be hit. Despite this we didn't 
dare open our mouths; he grabbed our heads by our hair and began 
hitting us. The pain that was inflicted on us was so bad we could not 
lay our head down properly to sleep for about two weeks.
    Another form of punishment and torture I received in the 
interrogation room was where I was forced to kneel down and a wooden 
plank was placed between my thighs and between my bent legs; every time 
I answered ``NO'' to a question I was kicked and that would cause me to 
bowl over. The plank that was placed was tremendously painful, and this 
was one way that I was tortured. Other forms of beatings and torture 
that I received after being forcibly repatriated by the Chinese 
authorities were in one instance, where I was forced to stand on tip-
toes and then mercilessly kicked and beaten; kicked and beaten to 
unconsciousness while forced to kneel, and then the security agents 
would wake me up with water splashed from an ashtray. My own mother was 
beaten in the head with a log so harshly, pieces of her skull cracked, 
and because she was also severely beaten with fists by the security 
agents, her eardrum ruptured and to this day she is hard of hearing in 
one ear. All these methods of severe and cruel punishment were to try 
to find out whether the North Korean refugees had attempted to 
eventually escape to South Korea, or whether they had attended church 
or come into contact with Christians while in China. Our family I 
believe was miraculously saved through God's special grace and mercy. I 
also believe that God saved me so that I would be able to tell the 
world the plight of the North Korean people's unfair suffering, and the 
worst modern-day evil that is going on right now.
    When I think of the almost three dozen North Korean refugees who 
will be experiencing torture and fear on a far worse scale than what I 
went through, I am filled with dread and fear, and my heart aches so 
much. The North Korean regime under Kim Jong Un has declared that any 
North Korean that attempts to escape during the mourning period for Kim 
Jong Il will be dealt with most severely, and these refugees who have 
embarrassed the regime and sought the world's attention to save them, 
will surely be punished to three generations and be given the harshest 
sentence, if they are repatriated by China.
    I sincerely and earnestly request all of you here today, and for 
those throughout the world who will hear this Hearing, that the good 
fortune and privilege we have now of living in freedom, will become a 
reality for those more than 30 North Korean refugees currently being 
held by China, only through your combined attention and effort. I 
sincerely and earnestly request that you will help save the precious 
lives of these more than 30 North Korean refugees, lives that are more 
precious than anything in this world, through talking with the 
Government of China, even as they are pushing down people who are 
drowning and reaching out their hands to be rescued.
    China & North Korea, Stop Killing People!!!
    Thank you.
                                 ______
                                 

                     Prepared Statement of T. Kumar

                             march 5, 2012

    Thank you Mr. Chairman and member of the Congressional-Executive 
Commission on China, Amnesty International is pleased to testify at 
this important hearing on China's repatriation of North Korean 
refugees.
    Amnesty International have been closely monitoring the plight of 
North Korean refugees in China for over a decade and have published 
reports on the treatment of North Korean refugees by the Chinese 
authorities, reasons why North Koreans flee their country and the 
abuses faced by North Korean refugees forcibly returned to North Korea.
    Despite China being a Permanent Member of the UN Security Council 
and a state party to the UN Refugee Convention; with respect to North 
Korean border-crossers residing without legal documentation, China 
completely disregards its commitments to and obligations under the 
international system. China denies these North Koreans the enjoyment of 
full protection of their human rights and refugee rights in China.
    Chinese authorities forcibly returns North Korean border-crossers 
back to North Korea where they face risk to their lives. By its 
actions, it intimidates North Korean border-crossers and those who are 
helping them in China. China refuses to give access to the UN refugee 
agency, the UN High Commissioner for Refugees (UNHCR).
    Those individuals apprehended by Chinese border police and North 
Korean authorities in China are reportedly detained in China for 
several days and then forcibly returned to their country where they are 
at risk of punishment including arbitrary detention, forced labor, and 
in some cases, the death penalty for leaving the country without 
authorization.

                               BACKGROUND

    The acute food shortages in North Korea since the early 1990s have 
forced tens of thousands of people to cross the border ``illegally'' 
into China's north-eastern provinces. According to NGOs, journalists 
and aid workers who have visited the region, thousands of North Koreans 
are currently residing in border areas.
    Amnesty International believes that all North Korean in China are 
entitled to refugee status because of threat of human rights violations 
if they were to be returned to North Korea against their will.
    The North Korean authorities criminalize the act of leaving the 
country without State approval and consider it a political offence, 
even though the motive for leaving the country may simply be one of 
survival. This along with harsh punishments faced by those who are 
returned would indicate that almost all North Korean who flee are at 
risk of facing severe abuses once returned.
    Their plight is made even more precarious by reports suggesting a 
January 2012 announcement by the North Korean authorities condemning 
border-crossers and threatening them with severe punishments. The 
announcement comes at a time when North Korea's leadership is in 
transition.
    Amnesty International is concerned that this reported denouncement 
of border-crossers could signal a crackdown against any potential 
dissent at this key time in North Korea. Additionally, those who are 
forcibly returned now may face even harsher punishment than usual.
    North Korean authorities refuse to recognize or grant access to 
international human rights monitors, including Amnesty International 
and the UN Special Rapporteur on the situation of human rights in the 
Democratic People's Republic of Korea (North Korea).
           repatriation and the principle of non-refoulement
    Article 33 (1) of the 1951 Convention relating to the Status of 
Refugees, states that:

          No Contracting State shall expel or return ('refouler') a 
        refugee in any manner whatsoever to the frontiers of 
        territories where his life or freedom would be threatened on 
        account of his race, religion, nationality, membership of a 
        particular social group or political opinion.

    International law prohibits the forcible return, either directly or 
indirectly, of any individuals to a country where they are at risk of 
persecution, torture or other ill-treatment, or death.

                 CHINA-NORTH KOREA BILATERAL AGREEMENT

    According to a White Paper published by the South Korean think-tank 
KINU in 2011, ``North Korea's State Safety Protection Agency and 
China's Public Safety Agency have been enforcing strict controls over 
the movement of their citizens across the border based on the 
``Bilateral Agreement on Mutual Cooperation for the Maintenance of 
State Safety and Social Order'' (July 1998).

                PLIGHT OF NORTH KOREAN REFUGEES IN CHINA

    Despite significant risks, thousands of North Koreans illegally 
cross the border into China every year. China considers all 
undocumented North Koreans to be economic migrants, rather than as 
asylum seekers, and forcibly returns them to North Korea if they are 
caught.
    North Koreans residing ``illegally'' in China live in appalling 
conditions and are vulnerable to physical, emotional and sexual 
exploitation. North Koreans living in China live in constant fear of 
being caught detained by Chinese authorities and forcibly returned to 
China.
    North Korean border-crossers in China are in a very precarious 
situation. Some find shelter in villages and farms where they are 
supported by China's ethnic Korean community and ethnic Chinese people, 
several work in the service industry but are vulnerable to exploitation 
and discrimination given their lack of legal status to reside in China. 
Others are forced into begging.
    Surveillance and checking for ``illegal'' North Koreans in China 
have intensified and there have been even reports of North Korean 
authorities crossing the border to ``detain'' some North Korean border-
crossers and ``abduct'' them back to North Korea.
    North Koreans in China are denied their right to seek and enjoy 
asylum from persecution. Although China is a party to the Refugee 
Convention, NGOs and other advocates for North Korean asylum-seekers in 
China say that it is virtually impossible for North Koreans to access 
refugee determination procedures with UNHCR, or be afforded protection 
as a group.
    According to several reports Amnesty International has received 
from NGOs and contacts in Japan, South Korea, Europe and the USA, China 
regularly returns North Koreans back to their country of origin without 
giving them the opportunity to make a claim for asylum and without 
making an objective and informed decision that the North Koreans would 
be protected against serious human rights abuses in North Korea.
    The Government of China have on occasion also arrested and 
imprisoned NGO activists--most of whom are South Korean or Japanese 
nationals--and others who have been attempting to help North Koreans to 
leave China and reach South Korea.

   WHAT HAPPENS TO THE NORTH KOREAN BORDER-CROSSERS REPATRIATED FROM 
                                 CHINA?

Detention
    According to testimonies from North Korean border-crossers, all 
those forcibly repatriated from China are detained and interrogated in 
detention centers or police stations operated by the National Security 
Agency or the People's Safety Agency. The detainees are often subjected 
to torture.
    There appear to be several factors that influence the severity of 
the punishment meted out to North Koreans who have been forcibly 
returned from China. After the interrogation, ``depending on the number 
of times the person had been in China, depending on their background 
(if the person had been serving in the military or was a government 
official, then the interrogation and sentencing appear to be more 
severe) and if the authorities have been convinced that the detainees 
are not `politically dangerous', they are sent to a village unit labor 
camp, where they spend between three months and three years in forced 
labor.
    If the North Korean border-crossers are considered to be 
politically sensitive such as serving or retired government officials 
or military personnel, they are at risk of being sent to a political 
prison camp.
    North Korean border-crossers who have been in touch with South 
Korean nationals or with religious groups while in China are at great 
risk of being sent to political prison camps.
Execution
    In 2011, Amnesty International reported testimonies of former 
detainees at political prison camp 15 at Yodok, that prisoners are 
forced to work in conditions approaching slavery and are frequently 
subjected to torture and other cruel, inhuman, or degrading treatment. 
All those interviewed had witnessed public executions.

                                 WOMEN

    Women suffer particularly because of the social roles ascribed to 
them. Women are generally responsible for finding food for their 
families, and in times of scarcity often have the last call on food 
within a household. Many have been forced to roam the countryside in 
search of food, medicine and other daily necessities. A large 
proportion of those crossing the border into China for these purposes 
are women.
    In its 2003 concluding observations on North Korea, the Committee 
on Economic, Social and Cultural Rights expressed its concern about 
the: ``persistence of traditional attitudes and practices prevailing . 
. . with regard to women that negatively affect their enjoyment of 
economic, social and cultural rights. The Committee is concerned about 
the lack of domestic legislation on non-discrimination against women 
and about the persistence of de facto inequality . . .''
    Information received by Amnesty International indicates that a 
growing number of women have been forced to turn to prostitution to 
feed themselves and their hungry families.
    Amnesty International has also documented an increase in the number 
of North Korean women being trafficked to China by Chinese bride 
traffickers where they are sold on to ethnic Korean farmers of Chinese 
nationality who have difficulty finding wives.

                                CHILDREN

    The Committee on Rights of the Child expressed concern in June 2004 
at reports of North Korean street children in Chinese border towns. It 
was also deeply concerned at reports that children (and their families) 
returning or forcibly returned back to North Korea were considered by 
the North Korea government not as victims but as perpetrators of a 
crime.

                            NORTH KOREAN LAW

    North Koreans who flee their country are usually considered by 
their government to be traitors and/or criminals if they leave North 
Korea without official permission. Article 47 of the 1987 North Korean 
Criminal Code states that:

          A citizen of the Republic who defects to a foreign country or 
        to the enemy in betrayal of the country and the people...shall 
        be committed to a reform institution for not less than seven 
        years. In cases where the person commits an extremely grave 
        concern, he or she shall be given the death penalty . . .

    Article 117 states:

          A person who crosses a frontier of the Republic without 
        permission shall be committed to a reform institution for up to 
        three years.

    The North Korean law which prohibits unauthorized departure is in 
clear breach of the fundamental right to leave one's own country. 
Article 12 (2) of the International Covenant on Civil and Political 
Rights (ICCPR), to which North Korea is a state party, states that 
``(e)veryone shall be free to leave any country, including his own.''
    North Koreans who ``illegally'' cross or help others in crossing 
the North Korean border face heavy penalties. Under Article 117 of the 
Criminal Code, a person who illegally crosses ``a frontier of the 
Republic'' faces a sentence of up to three years in a kwalliso (a 
political prison camp).
    In a 2006 media briefing, ``North Korea: Human rights concerns'', 
Amnesty International stated that the large numbers of North Korean 
border-crossers being forcibly repatriated back from China have caused 
the North Korean government to ease sentences and change the penal 
code. The 1999 version of the penal code distinguished between 
``unlawful border crossing'' and crossing ``with the intent to overturn 
the Republic''.
    The 2004 revision of the North Korean penal code further 
distinguishes between ``crossing'' and ``frequent crossings''. 
According to the latter version, ``frequent crossing'' of the border 
without permission is a criminal act punishable by up to two years in 
labor camps (three years in the 1999 version).
    Acts of treason, such as ``surrendering, changing allegiance, [and] 
handing over confidential information'', are punishable by five to ten 
years of hard labor, or ten years to life in more serious cases.

                            RECOMMENDATIONS

    The Government of China should:

        <bullet> Stop immediately all operations by Chinese and the 
        North Korean officials aimed at apprehending and intimidating 
        North Korean border-crossers and those who are helping them in 
        China.
        <bullet> Respect its obligations under international human 
        rights and refugee law. This includes protecting the 
        fundamental human rights of all North Koreans on its territory. 
        In particular, asylum-seekers should have access to a fair, 
        satisfactory and individual refugee status determination 
        procedure.
        <bullet> North Korean asylum-seekers should be given access to 
        the UNHCR so that their claims for protection can be 
        independently and impartially assessed. Persons found to be 
        refugees under a fair and satisfactory procedure should have 
        access to effective respect for their fundamental human rights, 
        including their economic, social and cultural rights.
        <bullet> In accordance with the customary norm of non-
        refoulement and its obligations under the Convention against 
        Torture and the Refugee Convention, the Government of China 
        should not forcibly return any North Korean to North Korea who 
        may be subject to serious human rights abuses, including 
        imprisonment, torture, execution or other punishment inflicted 
        for leaving the country without authorization.
        <bullet> Immediately end all bilateral re-admission agreements 
        [with North Korea] which deny asylum-seekers and refugees 
        access to a fair and satisfactory asylum-procedure and 
        effective and durable protection from refoulement.
        <bullet> Lift restrictions on access to the border areas with 
        North Korea for the UNHCR, independent human rights monitors 
        and other independent observers, agencies and organizations.

    The Government of North Korea should:

        <bullet> Respect the right to freedom of movement for all North 
        Koreans, especially to ensure that they have adequate access to 
        food. The North Korean government should not punish individuals 
        whose only crime is to try and feed their family.
        <bullet> The North Korean government should, especially, 
        refrain from punishing its citizens who have moved to other 
        countries, in particular for humanitarian reasons, and refrain 
        from treating their departure as criminal or even as treason 
        leading to punishments of imprisonment, inhuman or degrading 
        treatment or the death penalty.
        <bullet> Stop all executions.
        <bullet> Respect the right of access to information--including 
        by allowing independent news media to publish and broadcast and 
        by granting free and unimpeded access to media outlets--so that 
        ordinary people are aware of the gravity of the food situation 
        and of their human rights.
        <bullet> Allow independent international human rights monitors.

    The Government of the United States should:

          (1) Raise North Korean refugee protection issues in all its 
        meetings with the Chinese Government, including during the 
        annual Security and Economic Dialogue and Human Rights 
        Dialogue.
          (2) Ensure that the Government of China respects its 
        obligations under international law, including respecting the 
        fundamental principle of non-refoulement, by not forcibly 
        repatriating North Korean Refugees.
          (3) Urge the Chinese Government to stop arresting and 
        intimidating North Korean refugees.
          (4) Urge the Chinese Government to fulfill its obligations 
        under the 1951 Convention relating to the Status of Refugees, 
        including respect for the right of North Koreans to seek and 
        enjoy asylum.
          (5) Urge the North Korean Government not to punish North 
        Korean refugees brought back to North Korea.
          (6) Help resettle North Korean refugees.

    Thank you for inviting Amnesty International to testify in this 
hearing.
                                 ______
                                 

                 Prepared Statement of Greg Scarlatoiu

                             march 5, 2012

    Good afternoon, Chairman Smith, Cochairman Brown, and members of 
the Commission. On behalf of the Committee for Human Rights in North 
Korea, thank you for inviting me to speak with you at this hearing 
today. Our Committee considers it essential to draw attention to the 
case of 30 to 40 North Koreans who have been arrested by China and who 
now risk being forcibly returned to North Korea where they most 
assuredly will be subjected to severe punishment in violation of 
international refugee and human rights law. The fundamental right to 
leave a country, to seek asylum abroad and not to be forcibly returned 
to conditions of danger are internationally recognized rights which 
China and North Korea must be obliged to respect.
    Mr. Chair, the Committee for Human Rights in North Korea is a 
Washington DC-based non-governmental organization, established in 2001. 
Our Committee's main statement has been prepared by Chair Roberta 
Cohen, who was unable to be here today. I will draw upon that statement 
in my opening remarks.
    Over the past two decades, considerable numbers of North Koreans 
have risked their lives to cross the border into China. They have done 
so because of starvation, economic deprivation or political 
persecution. It is estimated that there are thousands or tens of 
thousands in China today. Most are vulnerable to forced returns where 
they will face persecution and punishment because leaving North Korea 
without permission is a criminal offense. Yet to China, all North 
Koreans are economic migrants, and over the years, it has forcibly 
returned tens of thousands to conditions of danger. According to the 
testimonies and reports received by the Committee for Human Rights, the 
North Koreans returned to their country endure cruel and inhuman 
punishment including beatings, torture, detention, forced labor, sexual 
violence, and in the case of women suspected of become pregnant in 
China, forced abortions or infanticide. Some have even been executed.
    We therefore submit that North Koreans in China merit international 
refugee protection for the following reasons: First, a definite number 
of those who cross the border may do so out of a well founded fear of 
persecution on political, social or religious grounds that would accord 
with the 1951 Refugee Convention. Second, the reasons why these North 
Koreans flee to China go beyond the economic realm. Those who cross the 
border into China for reasons of economic deprivation are often from 
poorer classes, without access to the food and material benefits 
enjoyed by the privileged political elite. Subject to North Korea's 
songbun classification system, their quest for economic survival may be 
based on political persecution. Examining such cases in a refugee 
determination process might establish that certain numbers crossing 
into China for economic survival merit refugee status. Third, and by 
far the most compelling argument why North Koreans should not be 
forcibly returned is that most if not all fit the category of refugees 
sur place. As defined by the UN High Commissioner for Refugees (UNHCR), 
refugees sur place are persons who might not have been refugees when 
they left their country but who become refugees at a later date because 
they have a valid fear of persecution upon return. North Koreans who 
leave their country for reasons including economic motives have valid 
reasons for fearing persecution and punishment upon return. 
Accordingly, UNHCR has urged China not to forcibly return North Koreans 
and has proposed a special humanitarian status for them so that they 
can obtain temporary documentation and access to services and not be 
repatriated.
    China, however, has refused to allow UNHCR access to North Koreans 
in border areas where it could set up a screening process. It considers 
itself bound by an agreement it made with North Korea in 1986 obliging 
both countries to prevent ``illegal border crossings,'' which replaced 
an earlier 1960 agreement. It also stands by its local law in Jilin 
province (1993) which requires the return of North Koreans who enter 
illegally. Both documents stand in violation of China's obligations 
under the 1951 Refugee Convention (which it signed in 1982), its 
membership in UNHCR's Executive Committee (EXCOM), and the human rights 
agreements it has ratified. These include the Convention against 
Torture, which prohibits the return of persons to states where they 
could be subjected to torture, and the Convention on the Rights of the 
Child, which prohibits the return of unaccompanied children to 
countries where they could be irreparably harmed.
    It is reported that some local Chinese officials have at times 
provided documents to North Korean women married to Han Chinese, which 
allows them and their children some form of protection and access to 
medical and educational services. Such practices should be encouraged 
but they are not Chinese policy or law. Most North Koreans in China 
have no rights and are vulnerable to exploitation, forced marriages and 
trafficking as well as to forced returns where they will face 
persecution and punishment. Our Committee's report Lives for Sale: 
Personal Accounts of Women Fleeing North Korea to China, 2010, 
documents the experiences of North Korean women in China and the 
extreme lack of protection for them.
    To encourage China to fulfill its international obligations to 
North Koreans on its territory, our Committee puts forward the 
following recommendations:
    First, the United States Congress should consider additional 
hearings on the plight of North Koreans who cross into China to keep a 
spotlight on the issue and try to avert forced repatriations to 
conditions of danger.
    Second, members of Congress should consider supporting the efforts 
of the Parliamentary Forum for Democracy, established in 2010, so that 
joint inter-parliamentary efforts can be mobilized in a number of 
countries on behalf of the North Koreans in danger in China.
    Third, the United States should encourage UNHCR to raise its 
profile on this issue. It further should lend its full support to 
UNHCR's appeals and proposals to China and mobilize other governments 
to do likewise in order to make sure that the provisions of the 1951 
Refugee Convention are upheld and the work of this important UN agency 
enhanced.
    Fourth, together with other concerned governments, the United 
States should give priority to raising the forced repatriation of North 
Koreans with Chinese officials but in the absence of a response, should 
bring the issue before international refugee and human rights fora. 
UNHCR's Executive Committee as well as the UN Human Rights Council and 
General Assembly of the United Nations should all be expected to call 
on China by name to carry out its obligations under refugee and human 
rights law and enact legislation to codify these obligations so that 
North Koreans will not be expelled if their lives or freedom are in 
danger.
    Fifth, the United States should consider promoting a multilateral 
approach to the problem of North Koreans leaving their country. Their 
exodus affects more than China. It concerns South Korea most notably, 
whose Constitution offers citizenship to North Koreans. Countries in 
East and Southeast Asia, East and West Europe as well as Mongolia and 
the United States are also affected. Together with UNHCR, a 
multilateral approach should be designed that finds solutions for North 
Koreans based on principles of non-refoulement and human rights and 
humanitarian protection. International burden sharing has been 
introduced for other refugee populations and could be developed here.
    Sixth, the United States should consider ways to enhance its 
readiness to increase the number of North Korean refugees and asylum 
seekers admitted to this country. Other countries should be encouraged 
as well to take in more North Korean refugees and asylum seekers until 
such time as they no longer face persecution and punishment in their 
country.
    Thank you, Mr. Chairman, and members of the Commission. I look 
forward to answering any questions you might have.
                                 ______
                                 

Prepared Statement of Hon. Chris Smith, a U.S. Representative From New 
     Jersey; Chairman, Congressional-Executive Commission on China

     China's Forced Repatriation of North Korean Refugees Violates 
                           International Law

                             march 5, 2012

    Dozens of North Koreans are today at imminent risk of persecution, 
torture--even execution--owing to China's decision to forcibly 
repatriate them in stark violation of both the spirit and the letter of 
the 1951 Refugee Convention and 1967 Protocol to which China has 
acceded.
    The international community--especially the United Nations, the 
Obama Administration and the US Congress--must insist that China at 
long last honor its treaty obligations, end its egregious practice of 
systematic refoulement, or be exposed as hypocrites
    Article 33 of the Convention and Protocol Relating to the Status of 
Refugees couldn't be more clear:

          Prohibition of Explusion or Return (``Refoulement''): No 
        Contracting State shall expel or return (``refouler'') a 
        refugee in any manner whatsoever to the frontiers of 
        territories where his life or freedom would be threatened on 
        account of his race, religion, nationality, membership of a 
        particular social group or political opinion.

    Today's hearing underscores an emergency that begs an immediate 
remedy. Lives are at risk. The North Korean refugees--
disproportionately women--face death or severe sexual abuse and torture 
unless they get immediate protection. China has a duty to protect.
    In recent weeks we have had learned that Chinese authorities have 
reportedly detained dozens--perhaps more than 40--North Korean 
refugees. North Korea's leader, Kim Jong-un, has threatened to 
``exterminate three generations'' or any family with a member caught 
defecting from North Korea during the 100-day mourning period for the 
late Kim Jong-il. I believe him.
    It's unclear whether or not the Obama Administration's food aid to 
North Korea--some 240,000 metric tons per year--contains any conditions 
or links to the refugees. It should.
    Forced repatriation by China of North Koreans isn't new. But that 
doesn't make what is about to happen to dozens of new victims any less 
offensive.
    According to testimony submitted today by Roberta Cohen, Chair of 
the Committee for Human Right in North Korea and Non-Resident Senior 
Fellow at the Brookings Institution, ``China has forcibly returned tens 
of thousands over the past two decades. Most if not all have been 
punished in North Korea and according to the testimonies and reports 
received by the Committee for Human Rights, the punishment has included 
beatings, torture, detention, forced labor, sexual violence, and in the 
case of women suspected of become pregnant in China, forced abortions 
or infanticide.''
    For the record, since 2005 alone, I have chaired four congressional 
human rights hearings that focused in whole or in part on the plight of 
North Korean refugees and China's ongoing violations of international 
law. They include:

        <bullet> Human Rights in North Korea: Challenges and 
        Opportunities (Sept. 20, 2011)
        http://foreignaffairs.house.gov/112/68443.pdf

        <bullet> North Korea: Human Rights Update and International 
        Abduction Issues (April 27, 2006)
        http://democrats.foreignaffairs.house.gov/archives/109/
        27228.pdf

        <bullet> Lifting the Veil: Getting the Refugees Out, Getting 
        Our Message In: An Update on the Implementation of the North 
        Korean Human Rights Act (Oct. 27, 2005)
        http://democrats.foreignaffairs.house.gov/archives/109/
        24202.pdf

        <bullet> The North Korean Human Rights Act of 2004: Issues and 
        Implications (April 28, 2005)
        http://democrats.foreignaffairs.house.gov/archives/109/
        20919.pdf

    The Chinese government claims that the North Korean refugees are 
``illegal economic migrants''--not refugees. Furthermore, the Chinese 
government continues its policy of repatriating North Koreans in China 
according to a bilateral repatriation agreement that requires it return 
all border crossers. As we will hear today, in doing so, China is in 
clear violation of its obligations under the 1951 Convention Relating 
to the Status of Refugees and its 1967 Protocol, to which China has 
acceded. Under international law and standards, these detained refugees 
are entitled to protection if there is well-founded reason to believe 
that they will be persecuted upon return. As our witnesses will attest, 
we know what the detained refugees face. There are documented accounts, 
as well as strong evidence. We know that persecution exists.
    North Korea is certainly at fault. It must also be stated that 
China has contributed to the humanitarian crisis through its policy of 
gendercide--the killing of baby girls by forced abortion of 
infanticide. China's one-child policy has led to the worst gender 
disparity in any nation in history, and that is directly connected to 
the issue we probe today. According to the 2011 CECC Annual Report, 
NGOs and researchers estimate that as many as 70 percent of the North 
Korean refugees in China are women. And some researchers have estimated 
that 9 out of every 10 North Korean women in China are trafficked. 
There is a high demand for wives in northeastern China where severe sex 
ratio imbalances have fueled the trafficking of North Korean women for 
commercial sexual exploitation and forced marriage.
    Our focus today is China's role and responsibility in solving this 
immediate problem. At this time, we call on China to uphold its 
international obligations and take immediate steps to end this cruel 
policy of sending North Koreans back to persecution or death. China 
must conform to international norms and allow these refugees safe 
passage to the Republic of Korea, or grant them immediate asylum. And, 
we ask that the Chinese government take all necessary steps to meet the 
requirements of the Convention Relating to the Status of Refugees and 
its Protocol.
    I welcome and thank all of our witnesses. It is an extraordinary 
honor to welcome Ms. Han Song-hwa and her daughter Jo Jin-hye, former 
North Korean refugees who are here to share their personal accounts of 
detention, hardship and loss. I am sure that their reflections and 
observations will deepen our understanding of this issue and strengthen 
our insistence that China immediately address this crisis.

                       Submission for the Record

                              ----------                              


 Written Statement of Roberta Cohen, Chair, Committee for Human Rights 
     in North Korea, and Non-Resident Senior Fellow, the Brookings 
     Institution, on China's Repatriation of North Korean Refugees

                             march 5, 2012

    On behalf of the Committee for Human Rights in North Korea, I would 
like to express great appreciation to Congressman Christopher Smith and 
Senator Sherrod Brown for holding this hearing today to highlight the 
case of an estimated 30 to 40 North Koreans who fled into China and now 
risk being forcibly returned to North Korea where they will most 
assuredly be severely punished. We consider it essential to defend the 
fundamental rights of North Koreans to leave their country and seek 
asylum abroad and to call upon China to stop its forcible repatriation 
of North Koreans and provide them with the needed human rights and 
humanitarian protection to which they are entitled. The right to leave 
a country, to seek asylum abroad and not to be forcibly returned to 
conditions of danger are internationally recognized rights which North 
Korea and China, like all other countries, are obliged to respect.
    This particular case of North Koreans has captured regional and 
international attention. South Korean President Lee Myung Bak has 
spoken out publicly against the return of the North Koreans and 
National Assembly woman Park Sun Young has undertaken a hunger strike 
in front of the Chinese Embassy in Seoul. The Parliamentary Forum for 
Democracy encompassing 18 countries has urged its members to raise the 
matter with their governments.
    The case, however, is situated at the tip of the iceberg. According 
to the State Department's Human Rights Report (2010), there may be 
thousands or tens of thousands of North Koreans hiding in China. 
Although China does allow large numbers of North Koreans to reside 
illegally in its country, they have no rights and China has forcibly 
returned tens of thousands over the past two decades. Most if not all 
have been punished in North Korea and according to the testimonies and 
reports received by the Committee for Human Rights, the punishment has 
included beatings, torture, detention, forced labor, sexual violence, 
and in the case of women suspected of become pregnant in China, forced 
abortions or infanticide.
    Stringent punishment in particular has been meted out to North 
Koreans who have associated abroad with foreigners (i.e., missionaries, 
aid workers or journalists) or have sought political asylum or tried to 
obtain entry into South Korea. The North Koreans currently arrested and 
threatened with return are therefore likely to suffer severe punishment 
should they be repatriated. Some might even face execution; the North 
Korean Ministry of Public Security issued a decree in 2010 making the 
crime of defection a ``crime of treachery against the nation.''
    The Committee for Human Rights in North Korea, a Washington DC-
based non-governmental organization, established in 2001, has published 
three in-depth reports on the precarious plight of North Koreans in 
China and the cruel and inhuman practice of forcibly sending them back 
to one of the world's most oppressive regimes. The first, The North 
Korean Refugee Crisis: Human Rights and International Response (2006), 
edited by Stephan Haggard and Marcus Noland, establishes that most if 
not all North Koreans in China merit a prima facie claim to refugee or 
refugee sur place status. The second, Lives for Sale: Personal Accounts 
of Women Fleeing North Korea to China (2010) calls upon China to set up 
a screening process with the UN High Commissioner for Refugees (UNHCR) 
to determine the status of North Koreans and ensure they are not 
forcibly returned. The third, to be published in April, Hidden Gulag 
second edition, by David Hawk, presents the harrowing testimony of 
scores of North Koreans severely punished after being returned to North 
Korea.

      REASONS NORTH KOREANS IN CHINA SHOULD BE CONSIDERED REFUGEES

    Although China claims that North Koreans in its country are 
economic migrants subject to deportation, we submit that North Koreans 
in China should merit international refugee protection for the 
following reasons:
    First, a definite number of those who cross the border can be 
expected to do so out of a well founded fear of persecution on 
political, social or religious grounds. It is well known that in their 
own country North Koreans suffer persecution if they express or even 
appear to hold political views unacceptable to the authorities, listen 
to foreign broadcasts, watch South Korean DVDs, practice their own 
religious beliefs, or try to leave the country. Some 200,000 are 
incarcerated in labor camps and other penal facilities on political 
grounds. Moreover, North Koreans imprisoned for having gone to China 
for food or employment often try, once released, to leave again. Some 
conclude they will always be under suspicion, surveillance and 
persecution in North Korea and therefore cross the border once again, 
this time seeking political refuge, ultimately in South Korea.
    Because China has no refugee adjudication process to determine who 
is a refugee and the UN High Commissioner for Refugees (UNHCR) has no 
access to North Koreans at the border, it has not been possible to 
ascertain how many North Koreans are seeking asylum because of a well-
founded fear of political or other persecution. But those who cross the 
border because of political, religious or social persecution will no 
doubt fit the definition of refugee under the 1951 Convention Relating 
to the Status of Refugees and its 1967 Protocol.\1\
---------------------------------------------------------------------------
    \1\ Under the Convention, a person is a refugee if he or she is 
outside his/her country of origin because of ``a well-founded fear of 
being persecuted'' for ``reasons of race, religion, nationality, 
membership of a particular social group or political opinion'' and 
unable or unwilling to avail him or herself of the protection of that 
country. An exception is if the person has committed criminal acts 
(although in the case of North Korea, the term criminal would be open 
to discussion).
---------------------------------------------------------------------------
    Second, those who cross the border into China for reasons of 
economic deprivation, probably the majority, may also qualify as 
refugees if they have been compelled to leave North Korea because of 
government economic policies that could be shown to be tantamount to 
political persecution. These North Koreans are not part of the 
privileged political elite and therefore have insufficient access to 
food and material supplies. In times of economic hardship in 
particular, food is distributed by the government first to the army and 
Party based on political loyalty whereas many of the North Koreans 
crossing into China during periods of famine are from the ``impure,'' 
``wavering'' or ``hostile'' classes, which are the poor, deprived lower 
classes, designated as such under North Korea's songbun caste 
system.\2\ Their quest for economic survival could therefore be based 
on political discrimination and persecution. Examining such cases in a 
refugee determination process might establish that certain numbers of 
North Koreans crossing into China for economic survival merit refugee 
status under the 1951 Convention.
---------------------------------------------------------------------------
    \2\ See Committee for Human Rights in North Korea, Marked for Life: 
Songbun, North Korea's Social Classification System, 2012 
(forthcoming).
---------------------------------------------------------------------------
    Third, and by far the most compelling argument why North Koreans 
should not be forcibly returned is that most if not all fit the 
category of refugees sur place. As defined by UNHCR, refugees sur place 
are persons who might not have been refugees when they left their 
country but who become refugees ``at a later date'' because they have a 
valid fear of persecution upon return. North Koreans who leave their 
country because of economic reasons have valid reasons for fearing 
persecution and punishment upon return. Their government after all 
deems it a criminal offense to leave the country without permission and 
punishes persons who are returned, or even who return voluntarily. 
North Koreans in China therefore could qualify as refugees sur place.
    The High Commissioner for Refugees, Antonio Guterres in 2006 while 
on a visit to China raised the concept of refugees sur place with 
Chinese officials. He told them that forcibly repatriating North 
Koreans without any determination process and where they could be 
persecuted on return stands in violation of the Refugee Convention. To 
UNHCR since 2004, North Koreans in China without permission are deemed 
``persons of concern,'' meriting humanitarian protection.\3\ It has 
proposed to China a special humanitarian status for North Koreans, 
which would enable them to obtain temporary documentation, access to 
services, and protection from forced return. To date, China has failed 
to agree to this temporary protected status.
---------------------------------------------------------------------------
    \3\ In September 2004, the High Commissioner announced before 
UNHCR's Executive Committee that North Koreans in China are `persons of 
concern.'' One reason why UNHCR used this term was that it had no 
access to the North Koreans; another was that under the Refugee 
Convention, persons of dual nationality could be excluded from refugee 
status. (However it has been pointed out that in the case of North 
Koreans, not all are able to avail themselves of their right to 
citizenship in South Korea, some may not choose to do so, and South 
Korea may not take in every North Korean. The United States and other 
countries do not consider North Koreans ineligible for refugee status 
because of the dual nationality provision.)
---------------------------------------------------------------------------
    While China has cooperated with UNHCR in making arrangements for 
Vietnamese and other refugees to integrate in China or resettle 
elsewhere, it has refused to cooperate when it comes to North Koreans. 
Only in cases where North Koreans have made their way to foreign 
embassies or consulates or the UNHCR compound in Beijing has China felt 
impelled to cooperate with governments or the UNHCR in facilitating 
their departure to South Korea or other countries. In the vast majority 
of cases, China considers itself bound to an agreement it made with 
North Korea in 1986 (the ``Mutual Cooperation Protocol for the Work of 
Maintaining National Security and Social Order and the Border Areas''). 
This agreement obliges China and North Korea to prevent ``illegal 
border crossings of residents.'' Chinese police as a result collaborate 
with North Korean police in tracking down North Koreans and forcibly 
returning them to North Korea without any reference to their rights 
under refugee or human rights law or the obligations of China under the 
agreements it has ratified. Implementation of this agreement sounds 
remarkably like the efforts made by the former Soviet Union to support 
the German Democratic Republic's actions to punish East Germans for 
trying to leave their country. It is an agreement that undermines and 
stands in violation of China's obligations under the 1951 Convention 
Relating to the Status of Refugees (which it signed in 1982), its 
membership in UNHCR's Executive Committee (EXCOM), which seeks to 
promote refugee protection, and the human rights agreements to which 
China has chosen to adhere. So too do China's domestic laws contradict 
its international refugee and human rights commitments. A local law in 
Jilin province (1993) requires the return of North Koreans who enter 
the province illegally.
    China is bound not only by the Refugee Convention that prohibits 
non-refoulement but the Convention against Torture and Other Cruel, 
Inhuman or Degrading Treatment or Punishment, which China ratified in 
1988. It prohibits the return of persons to states ``where there are 
substantial grounds for believing'' that they would be ``subjected to 
torture.'' Indeed, the Committee against Torture (CAT), the expert body 
monitoring the convention's implementation, has called upon China to 
establish a screening process to examine whether North Koreans will 
face the risk of torture on return, to provide UNHCR access to all 
North Korean persons of concern, and to adopt legislation incorporating 
China's obligations under the convention, in particular with regard to 
deportations.
    Another UN expert body, the Committee on the Rights of the Child, 
which monitors compliance by China and other states with the Convention 
on the Rights of the Child, similarly has called on China to ensure 
that no unaccompanied child from North Korea is returned to a country 
``where there are substantial grounds for believing that there is a 
real risk of irreparable harm to the child.''
    China of course has legitimate interests in wanting to control its 
borders. It is concerned about potential large scale outflows from 
North Korea and the impact of such flows on North Korea's stability. It 
also is said to be concerned about potential Korean nationalism in its 
border areas where there are historic Korean claims. But China should 
not become complicit in the serious human rights violations perpetrated 
by North Korea against its own citizens. The reports of the United 
Nations Secretary-General and of the Special Rapporteur on human rights 
in North Korea as well as the resolutions of the General Assembly, 
adopted by more than 100 states, have strongly criticized North Korea 
for its practices and called upon North Korea's ``neighboring states'' 
to cease the deportation of North Koreans because of the terrible 
mistreatment they are known to endure upon return.

                            RECOMMENDATIONS

    To encourage China to fulfill its international obligations in this 
matter, the following recommendations are offered:
    First, additional hearings should be held by the United States 
Congress on the plight of North Koreans who cross into China. A 
spotlight must be kept on the issue to seek to avert China's forced 
repatriation of North Koreans to situations where their lives are at 
risk.
    Second, members of Congress should lend support to the efforts of 
the Parliamentary Forum for Democracy, established in 2010, so that 
joint inter-parliamentary efforts can be mobilized in a number of 
countries around the world on behalf of the North Koreans in danger in 
China. Such joint efforts can also offer solidarity to South Korean 
colleagues protesting the forced return of North Koreans.
    Third, the United States should encourage UNHCR to raise its 
profile on this issue. It further should lend its full support to 
UNHCR's appeals and proposals to China and mobilize other governments 
to do likewise in order to make sure that the non-refoulement provision 
of the 1951 Refugee Convention is upheld and the work of this important 
UN agency enhanced. China's practices at present threaten to undermine 
the principles of the international refugee protection regime.
    Fourth, together with other concerned governments, the United 
States should give priority to raising the forced repatriation of North 
Koreans with Chinese officials but in the absence of response, should 
bring the issue before international refugee and human rights fora. 
UNHCR's Executive Committee as well as the UN Human Rights Council and 
General Assembly of the United Nations should all be expected to call 
on China by name to carry out its obligations under refugee and human 
rights law and enact legislation to codify these obligations so that 
North Koreans will not be expelled if their lives or freedom are in 
danger. Specifically, China should be called upon to adopt legislation 
incorporating its obligations under the Refugee Convention and 
international human rights agreements and to bring its existing laws 
into line with internationally agreed upon principles. It should be 
expected to call a moratorium on deportations of North Koreans until 
its laws and practices are brought into line with international 
standards and can ensure that North Koreans will not be returned to 
conditions of danger.
    Fifth, the United States should promote a multilateral approach to 
the problem of North Koreans leaving their country. Their exodus 
affects more than China. It concerns South Korea most notably, which 
already houses more than 23,000 North Korean `defectors' and whose 
Constitution offers citizenship to North Koreans. Countries in East and 
Southeast Asia, East and West Europe as well as Mongolia and the United 
States are also affected as they too have admitted North Korean 
refugees and asylum seekers. Together with UNHCR, a multilateral 
approach should be designed that finds solutions for North Koreans 
based on principles of non-refoulement and human rights and 
humanitarian protection. International burden sharing has been 
introduced for other refugee populations and should be developed here.
    Sixth, the United States should make known its readiness to 
increase the number of North Korean refugees and asylum seekers 
admitted to this country.\4\ Other countries should be encouraged as 
well to step forward and take in more North Korean refugees and asylum 
seekers until such time as they no longer face persecution and 
punishment in their country.
---------------------------------------------------------------------------
    \4\ See Roberta Cohen, ``Admitting North Korean Refugees to the 
United States: Obstacles and Opportunities,'' 38 North, September 20, 
2011.
---------------------------------------------------------------------------
    Thank you.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
